<html>
<title> - IMPROVING FEDERAL STUDENT AID TO BETTER MEET THE NEEDS OF STUDENTS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


               IMPROVING FEDERAL STUDENT AID TO BETTER
                       MEET THE NEEDS OF STUDENTS

=======================================================================

                                 HEARING

                               BEFORE THE

       SUBCOMMITTEE ON HIGHER EDUCATION AND WORKFORCE DEVELOPMENT

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 21, 2017

                               __________

                           Serial No. 115-10

                               __________

  Printed for the use of the Committee on Education and the Workforce
  
  
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
                
                
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
24-582 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a0c7d0cfe0c3d5d3d4c8c5ccd08ec3cfcd8e">[email&#160;protected]</a>               
                
                
                
                COMMITTEE ON EDUCATION AND THE WORKFORCE

               VIRGINIA FOXX, North Carolina, Chairwoman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Duncan Hunter, California                Virginia
David P. Roe, Tennessee              Ranking Member
Glenn ``GT'' Thompson, Pennsylvania  Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Brett Guthrie, Kentucky              Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Lou Barletta, Pennsylvania           Jared Polis, Colorado
Luke Messer, Indiana                 Gregorio Kilili Camacho Sablan,
Bradley Byrne, Alabama                 Northern Mariana Islands
David Brat, Virginia                 Frederica S. Wilson, Florida
Glenn Grothman, Wisconsin            Suzanne Bonamici, Oregon
Steve Russell, Oklahoma              Mark Takano, California
Elise Stefanik, New York             Alma S. Adams, North Carolina
Rick W. Allen, Georgia               Mark DeSaulnier, California
Jason Lewis, Minnesota               Donald Norcross, New Jersey
Francis Rooney, Florida              Lisa Blunt Rochester, Delaware
Paul Mitchell, Michigan              Raja Krishnamoorthi, Illinois
Tom Garrett, Jr., Virginia           Carol Shea-Porter, New Hampshire
Lloyd K. Smucker, Pennsylvania       Adriano Espaillat, New York
A. Drew Ferguson, IV, Georgia

                      Brandon Renz, Staff Director
                 Denise Forte, Minority Staff Director
                                 ------                                

       SUBCOMMITTEE ON HIGHER EDUCATION AND WORKFORCE DEVELOPMENT

                   BRETT GUTHRIE, Kentucky, Chairman

Glenn ``GT'' Thompson, Pennsylvania  Susan A. Davis, California
Lou Barletta, Pennsylvania             Ranking Member
Luke Messer, Indiana                 Joe Courtney, Connecticut
Bradley Byrne, Alabama               Alma S. Adams, North Carolina
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Elise Stefanik, New York             Raja Krishnamoorthi, Illinois
Rick W. Allen, Georgia               Jared Polis, Colorado
Jason Lewis, Minnesota               Gregorio Kilili Camacho Sablan,
Paul Mitchell, Michigan                Northern Mariana Islands
Tom Garrett, Jr., Virginia           Mark Takano, California
Lloyd K. Smucker, Pennsylvania       Lisa Blunt Rochester, Delaware
                                     Adriano Espaillat, New York
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 21, 2017...................................     1

Statement of Members:
    Davis, Hon. Susan A., Ranking Member, Subcommittee on Higher 
      Education and Workforce Development........................     4
        Prepared statement of....................................     5
    Guthrie, Hon. Brett, Chairman, Subcommittee on Higher 
      Education and Workforce Development........................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Chingos, Dr. Matthew M., Senior Fellow, Urban Institute, 
      Washington, DC.............................................    41
        Prepared statement of....................................    43
    Conklin, Ms. Kristin, Founding Partner, HCM Strategists, 
      Washington, DC.............................................    20
        Prepared statement of....................................    22
    Copeland-Morgan,, Mrs. Youlonda, Vice Provost of Enrollment 
      Management, University of California, Los Angeles..........    33
        Prepared statement of....................................    35
    Soucier, Ms. Joellen, Executive Director of Financial Aid, 
      Houston Community College System, Houston, TX..............     7
        Prepared statement of....................................    10

Additional Submissions:
    Adams, Hon. Alma S., a Representative in Congress from the 
      State of North Carolina:
        Letter dated March 30, 2017, from United Negro College 
          Fund, Inc. (UNCF)......................................    84
    Mrs. Copeland-Morgan:
        Article: The University of California at a Glance........    90
    Courtney, Hon. Joe, a Representative in Congress from the 
      State of Connecticut:
        Article: The next victims of the student debt crisis: Mom 
          and dad................................................    98
    Questions submitted for the record by:
        Ms. Adams................................................   106
        Mrs. Davis...............................................   108
        Chairman Guthrie.........................................
        Espaillat, Hon. Adriano, a Representative in Congress 
          from the State of New York.............................   109
        Foxx, Hon. Virginia, a Representative in Congress from 
          the State of North Carolina 




        Takano, Hon. Mark, a Representative in Congress from the 
          State of California....................................   110
    Responses to questions submitted for the record:
        Dr. Chingos..............................................   116
        Ms. Conklin..............................................   117
        Mrs. Copeland-Morgan 


        Ms. Soucier..............................................   119

 
   IMPROVING FEDERAL STUDENT AID TO BETTER MEET THE NEEDS OF STUDENTS

                              ----------                              


                        Tuesday, March 21, 2017

                        House of Representatives

               Committee on Education and the Workforce,

       Subcommittee on Higher Education and Workforce Development

                            Washington, D.C.

                              ----------                              

    The subcommittee met, pursuant to call, at 10:10 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Brett Guthrie 
[chairman of the subcommittee] presiding.
    Present: Representatives Guthrie, Messer, Grothman, 
Stefanik, Allen, Lewis, Mitchell, Smucker, Davis, Courtney, 
Adams, DeSaulnier, Krishnamoorthi, Polis, Sablan, Takano, Blunt 
Rochester, and Espaillat.
    Also Present: Representatives Foxx, Scott and Bonamici.
    Staff Present: Courtney Butcher, Director of Member 
Services and Coalitions; Emmanual Guillory, Professional Staff 
Member; Tyler Hernandez, Deputy Communications Director; Amy 
Raaf Jones, Director of Education and Human Resources Policy; 
Nancy Locke, Chief Clerk; Dominique McKay, Deputy Press 
Secretary; James Mullen, Director of Information Technology; 
Krisann Pearce, General Counsel; Jenny Prescott, Professional 
Staff Member; Alex Ricci, Legislative Assistant; Mandy 
Schaumburg, Education Deputy Director and Senior Counsel; Emily 
Slack, Professional Staff Member; Alissa Strawcutter, Deputy 
Clerk; Tylease Alli, Minority Clerk/Intern and Fellow 
Coordinator; Jacque Chevalier, Minority Deputy Education Policy 
Director; Denise Forte, Minority Staff Director; Mishawn 
Freeman, Minority Staff Assistant; Christine Godinez, Minority 
Staff Assistant; Stephanie Lalle, Minority Press Assistant; 
Veronique Pluviose, Minority Civil Rights Counsel; Katherine 
Valle, Minority Education Policy Advisor, and Christopher 
Zbrozek, Minority Education Detailee.
    Chairman Guthrie. A quorum being present, the Subcommittee 
on Higher Education and Workforce Development will come to 
order.
    Good morning, and welcome to the first hearing of the 
Subcommittee on Higher Education and Workforce Development for 
the 115th Congress. I am honored to serve as the new chairman 
of this subcommittee. I want to thank Dr. Foxx for choosing me 
for this gavel, and I want to thank my colleagues for trusting 
me to lead this important subcommittee.
    It is also my honor to welcome our new ranking member, 
Representative Susan Davis. I look forward to working together 
this Congress. I am confident we will advance solutions that 
help prepare students with the knowledge and skills they need 
to succeed in the classroom, in the workforce, and in life.
    Today's hearing is a part of the committee's broader effort 
to strengthen higher education. We all know and have seen the 
significant opportunities provided by a postsecondary 
education. Unfortunately, as we have also seen, realizing the 
dream of a higher education has become increasingly difficult 
for many individuals across the country.
    As Chairwoman Foxx pointed out at a hearing earlier this 
year, college costs are rising at a rapid rate. In fact, since 
2006, average tuition and fees have increased by more than 40 
percent at 4-year public institutions, and almost 27 percent at 
4-year private nonprofit institutions.
    Meanwhile, for a variety of reasons, students are not 
completing their education. It is estimated that among students 
who started college in the fall of 2010, only 55 percent had 
earned a degree or certificate by 2016. That is not even 4 
years. It is 6 years, with nothing to show for it in the end.
    These are just two statistics that will help illustrate the 
challenges individuals face when they consider whether or not 
they should or can pursue a higher education. They are also two 
of the reasons we are working to make higher education more 
accessible and affordable. One of the ways we can accomplish 
this goal is by simplifying and improving Federal student aid.
    Over the years, the Federal student aid system has become 
too complex. Students and their families are forced to navigate 
6 different types of Federal loans, 9 different repayment 
plans, 8 different forgiveness programs, and 32 deferment or 
forbearance options, each with its own rules and regulations. 
Sounds complicated, right?
    Now, imagine you are a student with no background or 
experience in navigating such financial options and 
responsibilities. Faced with all these choices and decisions, 
some individuals do not even know where to begin. Others simply 
give up. We need to get rid of the complexity. We need to 
eliminate the confusion students face, and there are a number 
of ways we can do both.
    Just yesterday, I introduced a bill, the Empowering 
Students Through Enhanced Financial Counseling Act, that would 
improve the timing, frequency, and content of financial aid 
counseling.
    These changes to current policy would help students and 
their families better understand their options and 
responsibilities when it comes to paying for college. It is an 
idea that has enjoyed strong bipartisan support in the past, 
and I am hopeful it will be part of the discussion as we move 
forward with efforts to strengthen higher education.
    Another idea is streamlining Federal aid into one grant 
program, one loan program, and one work study program, 
``streamlining'' being the operative word there. It is not 
about cutting. It is about cleaning things up, making it easier 
for individuals to explore their options, find the right 
school, figure out how to pay for their education, and 
determine the best way to repay loans.
    These ideas are just two of many solutions that have been 
proposed. Each makes different reforms, but they all have the 
same goal: make the system more efficient and more responsive 
to the needs of students.
    Simplifying Federal student aid is one principle in a 
comprehensive framework that will guide our work to strengthen 
higher education, but it is a critical one. Doing so will 
provide students and their families with a more timely and 
clearer picture of the financial assistance they are eligible 
to receive.
    It will ensure taxpayer dollars are supporting those 
students who need help the most, and perhaps, more importantly, 
it will help more Americans realize that the dream of a higher 
education is within reach.
    I look forward to hearing from our witnesses today and 
learning more about their ideas for simplifying and improving 
student aid. I know this discussion will help guide our work 
ahead as we move forward to reauthorize the Higher Education 
Act.
    This hearing is especially important to me. When my third 
child, my daughter, was born, I remember holding her and her 
brother coming into the room, and I started looking at them 
there together and how nice it was, baby and young son, and 
then it hit me. I said 18 years from now, they are going to be 
in college at the same time. Well, this is the 18th year, so I 
have a senior and a freshman, one in an out-of-state school and 
one in a private school. So, higher education financing is 
something that is on my mind.
    With that, I want to now recognize Ranking Member Davis for 
her opening remarks.
    [The information follows:]

  Prepared Statement of Hon. Brett Guthrie, Chairman, Subcommittee on 
               Higher Education and Workforce Development

    Today's hearing is part of our committee's broader effort to 
strengthen higher education. We all know and have seen the significant 
opportunities provided by a postsecondary education. Unfortunately, as 
we have also seen, realizing the dream of a higher education is 
becoming increasingly difficult for many individuals across the 
country.
    As Chairwoman Foxx pointed out at a hearing earlier this year, 
college costs are rising at a rapid rate. In fact, since 2006, average 
tuition and fees have increased by more than 40 percent at four-year 
public institutions and by almost 27 percent at four-year private 
nonprofit institutions. Meanwhile, for a variety of reasons, students 
aren't completing their education. It is estimated that among students 
who started college in the fall of 2010, only 55 percent had earned a 
degree or certificate by 2016. That's not even four years. It's six 
years--with nothing to show for it at the end.
    These are just two statistics that help illustrate the challenges 
individuals face when they consider whether or not they should or can 
pursue a higher education. They're also two of the reasons we are 
working to make higher education more accessible and affordable. One of 
the ways we can accomplish that goal is by simplifying and improving 
federal student aid.
    Over the years, the federal student aid system has become too 
complex. Students and their families are forced to navigate six 
different types of federal student loans, nine different repayment 
plans, eight different forgiveness programs, and 32 deferment and 
forbearance options--each with its own rules and requirements. Sounds 
complicated, right?
    Now, imagine you are a student with no background or experience in 
navigating such financial options and responsibilities. Faced with all 
of these choices and decisions, some individuals don't even know where 
to begin. Others simply give up.
    We need to get rid of the complexity. We need to eliminate the 
confusion students face. And there a number of ways we can do both.
    Just yesterday, I introduced a bill--the Empowering Students 
Through Enhanced Financial Counseling Act -- that would improve the 
timing, frequency, and content of financial aid counseling. These 
changes to current policy would help students and their families better 
understand their options and responsibilities when it comes to paying 
for college. It's an idea that has enjoyed strong bipartisan support in 
the past, and I'm hopeful it will be part of the discussion as we move 
forward with efforts to strengthen higher education.
    Another idea is streamlining federal aid into one grant program, 
one loan program, and one work study program--``streamlining'' being 
the operative word there. It's not about cutting. It's about cleaning 
things up--making it easier for individuals to explore their options, 
find the right school, figure out how to pay for their education, and 
determine the best way to repay their loans.
    These ideas are just two of many solutions that have been proposed. 
Each makes different reforms, but they all have the same goal: Make the 
system more efficient and more responsive to the needs of students.
    Simplifying federal student aid is one principle in a comprehensive 
framework that will guide our work to strengthen higher education, but 
it's a critical one. Doing so will provide students and their families 
with a more timely and a clearer picture of the financial assistance 
they are eligible to receive. It will ensure taxpayer dollars are 
supporting those students who need help the most. And, perhaps most 
importantly, it will help more Americans realize that the dream of a 
higher education is within reach.
    I look forward to hearing from our witnesses today and learning 
more about their ideas for simplifying and improving student aid. I 
know this discussion will help guide the work ahead as we continue our 
efforts to reauthorize the Higher Education Act.
                                 ______
                                 
    Mrs. Davis. Thank you. Thank you, Chairman Guthrie. I, too, 
look forward to a strong working relationship, and thank you to 
the witnesses for being here. I look forward to hearing your 
testimony.
    The Higher Education Act was enacted to expand access to 
college and provide an affordable degree to anyone wanting to 
pursue an education post-high school. Today's hearing provides 
us with an opportunity to hear from experts about ways to 
improve the Federal student aid system established in this 
legislation.
    Since HEA's enactment, the United States has made 
substantial progress in college access. Students of color and 
low-income students are going to college at higher rates than 
ever before. Although we should celebrate these outcomes, we 
know there is tremendous room for improvement.
    When we look at the data closely, we realize that low-
income students are still accessing higher education at lower 
rates than their more affluent peers back in the mid-1970s. 
This means that instead of making college less affordable by 
slashing billions from Federal financial aid programs like the 
President's partial budget request, us Democrats believe that 
with sufficient investment, the right targeting towards the 
students with the greatest need, and an easy access to 
financial aid, the current system could better serve America's 
working families.
    Through the HEA, the Federal Government has been able to 
provide Pell grants, Federal loans, and campus-based aid to 
millions of undergraduate and graduate students, but the Pell 
grant program now covers the smallest share of undergraduate 
costs since its inception.
    As state disinvestment and demographic changes have driven 
tuition up, Congress has failed to allow the program to keep up 
with costs and instead has made changes to reduce eligibility 
in order to keep the costs down.
    We must strengthen Pell by increasing the maximum award, 
indexing the award to inflation, reinstating Summer Pell, and 
preserve any remaining funds to reinvest in the program in 
future years. Otherwise, low-income students will increasingly 
rely on loans to afford their education. With more students 
taking out larger loans, we must improve the system so students 
have access to favorable terms and streamlined income-driven 
repayment plans.
    Proposals that remove the availability of subsidized loans 
for undergraduate students and eliminate PLUS loans for parents 
to create a one loan system would force low-income families to 
take out private loans, which lack the consumer protections of 
Federal student loans.
    As our country fully shifts to a knowledge-based economy, 
workers with graduate degrees are increasingly sought after, 
but throughout the years, graduate students have been excluded 
from the Federal loan system. If we want all students to have 
access to high-paying jobs, Congress must preserve access to 
these loans as well.
    Congress also has a unique opportunity to strengthen the 
campus-based aid programs during this reauthorization. Campus-
based aid allows students to work part-time to receive 
additional grant aid and borrow additional subsidized loans.
    So, we should preserve and bolster these programs, not 
eliminate them, as is currently being proposed.
    Robust and targeted investments are just two pieces of the 
puzzle. We should make financial aid easier to access. Too many 
students are unaware of the financial aid options provided by 
the government and forego the application process, and we know, 
you know, that it is a bit overwhelming and those who do apply 
find the form complex and confusing.
    Although the form has been greatly improved since its 
creation, we must ensure that students have a simple and 
functional tool at their disposal, and the recent outage of the 
IRS data retrieval tool used when filing the Free Application 
for Federal Student Aid, what we know as FAFSA, has already 
increased the burdensome verification process.
    So, we must work together to ensure the temporary shutdown 
of this tool does not negatively dissuade students from 
applying for aid or attending college.
    Mr. Chairman, we need to improve the system to work for all 
students, and we must create policies that pay close attention 
to those who have been traditionally underserved by our system. 
This will ensure that we can pass a strong reauthorization of 
HEA focused on access, on affordability, and, very important, 
completion.
    Thank you, Mr. Chairman. I yield back.
    [The information follows:]

Prepared Statement of Hon. Susan A. Davis, Ranking Member, Subcommittee 
             on Higher Education and Workforce Development

    Thank you, Chairman Guthrie. And thank you to the witnesses for 
being here. I look forward to hearing your testimony.
    The Higher Education Act was enacted to expand access to college 
and provide an affordable degree to anyone wanting to pursue an 
education post high school. And today's hearing provides us with an 
opportunity to hear from experts about ways to improve our federal 
student aid system established in this legislation.
    Since HEA's enactment, the United States has made substantial 
progress in college access. Students of color and low-income students 
are going to college at higher rates than ever before. And although we 
should celebrate these outcomes, there is room for improvement. When we 
look at the data closely, we realize that low-income students are still 
accessing higher education at lower rates than their more affluent 
peers back in the mid-1970s.
    This means that instead of making college less affordable by 
slashing billions from the federal financial aid programs like the 
President's
    partial budget requests, House Democrats believe that with 
sufficient investment, the right targeting toward the students with the 
greatest need, and easy to access financial aid, the current system 
could better serve America's working families.
    Through the HEA, the federal government has been able to provide 
Pell Grants, federal loans, and campus-based aid to millions of 
undergraduate and graduate students.
    But the Pell Grant program now covers the smallest share of 
undergraduate costs since its inception. As state disinvestment and 
demographic changes have driven tuition up, Congress has failed to 
allow the program to keep up with costs and instead, has made changes 
to reduce eligibility in order to keep the cost down. We must 
strengthen Pell by increasing the maximum award, indexing the award to 
inflation, reinstate Summer Pell, and preserve any remaining funds to 
reinvest in the program in future years. Otherwise, low-income students 
will increasingly rely on student loans to afford their education.
    With more students taking out larger loans, we must improve the 
system so students have access to favorable terms and streamlined 
income-driven repayment plans. Proposals that remove the availability 
of subsidized loans for undergraduate students and eliminate PLUS loans
    for parents to create a ``one loan'' system would force low-income 
families to take out private loans, which lack the consumer protections 
of federal student loans. And as our country fully shifts to a 
knowledge-based economy, workers with graduate degrees are increasingly 
sought after. But throughout the years, graduate students have been 
excluded from the federal loan system. If we want all students to have 
access to high paying job, Congress must preserve access to these loans 
as well.
    Chairman, Congress also has a unique opportunity to strengthen the 
campus-based aid programs during this reauthorization. Campus-based aid 
allows students to work part-time, receive additional grant aid, and 
borrow additional subsidized loans. We should preserve and bolster 
these programs - not eliminate them as the President requests.
    Robust and targeted investments are just two pieces of the puzzle. 
We should make financial aid easier to access. Too many students are 
unaware of the financial aid options provided by the government and 
forego the application process. And those who do apply find the form 
complex and confusing. Although this form has been greatly improved 
since its creation, we must ensure that students have a simple and 
functional tool at their disposal. The recent outage of the IRS Data 
Retrieval Tool used when filing the Free Application for Federal 
Student Aid (FAFSA) has already increased the burdensome verification
    process. We must work together to ensure the temporary shutdown of 
this tool does not negatively dissuade students from applying for aid 
or attending college.
    Chairman, we need to improve the system to work for all students 
and we must create policies that pay close attention to those who have 
been traditionally underserved by our system. This will ensure that we 
can pass a strong reauthorization of HEA focused on access, 
affordability, and completion.
    Thank you, Chairman. I yield back.
                                 ______
                                 
    Chairman Guthrie. Thank you. I thank the ranking member for 
yielding back. Pursuant to Committee Rule 7(c), all members 
will be permitted to submit written statements to be included 
in the permanent hearing record. Without objection, the hearing 
record will remain open for 14 days to allow such statements 
and other extraneous material referenced during the hearing to 
be submitted for the official hearing record.
    I would now like to turn to introduction of our 
distinguished witnesses. Ms. JoEllen Soucier is the executive 
director of financial aid for the Houston Community College 
System in Houston, Texas.
    Ms. Kristin Conklin is a founding partner for HCM 
Strategists, LLC, a government relations strategy and 
development firm.
    Mrs. Youlonda Copeland-Morgan is vice president of 
enrollment management with the--we have a ball game--I am from 
Kentucky, that is coming up, University of California, Los 
Angeles, who will be playing the Wildcats this Friday night. 
Two great programs.
    Dr. Matt Chingos, who is a senior fellow at the Urban 
Institute, where he studies education-related topics at both 
the K-12 and postsecondary levels.
    I will now ask the witnesses to stand and raise your right 
hand. You do not have to stand, but since you are standing, 
raise your right hand.
    [Witnesses sworn.]
    Chairman Guthrie. Let the record reflect the witnesses 
answered in the affirmative. Thank you.
    Before I recognize you to provide your testimony, let me 
briefly explain our lighting system. You each have 5 minutes to 
present your testimony. When you begin, the light in front of 
you will turn green. When 1 minute is left, the light will turn 
yellow. When your time has expired, the light will turn red. At 
that point, I will ask you to wrap up your remarks as fast as 
you are able. Members will each have 5 minutes to ask 
questions.
    First, recognized for 5 minutes for her testimony is Ms. 
Soucier. Thank you. You are recognized for 5 minutes.

 TESTIMONY OF JOELLEN SOUCIER, EXECUTIVE DIRECTOR OF FINANCIAL 
     AID, HOUSTON COMMUNITY COLLEGE SYSTEM, HOUSTON, TEXAS

    Ms. Soucier. Chairman Guthrie, Ranking Member Davis, and 
members of the subcommittee, good morning. Thank you for 
inviting me to testify today. I am very proud to be here.
    I've been a financial aid administrator for 29 years, and 
am passionate about my work. I became a financial aid director 
in 1992, and have held leadership positions in various sectors 
of higher ed.
    My current institution, Houston Community College, serves 
approximately 40,000 aid recipients each year, of which over 
30,000 receive a Pell grant. When I entered college, I was a 
first-generation student from a low-income household. Without 
financial aid, college would not have been possible.
    Today, my testimony will identify some of the current 
complexities and resulting challenges that exist, in the hopes 
that we can move towards simplifying the entire financial aid 
process.
    The challenges can be categorized into four key areas, the 
Federal application process, consumer information, student aid 
programs, and student loan repayment.
    The discussion around financial aid simplification often 
centers upon the number of questions on the Federal 
application. While the number can be stunning, 83 for 
independent and 126 for dependent students, the advent of more 
advanced skip-logic has assisted with shortening the time it 
takes to complete the online application. Still, applying for 
financial aid remains a barrier for many.
    The confusion with the process can be demonstrated by my 
experience at Houston Community College. Our communication plan 
consists of robust messages. We have over 70 different email 
communications sent through our aid delivery process. We employ 
25 staff in our call center.
    We have a detailed phone messaging system, over 50 staff 
covering 14 aid offices across the city, and a communications 
coordinator feeding financial aid messages through various 
social media platforms. Regardless of these immense efforts, 
our students are confused and frustrated.
    In September of 2015, President Obama and Secretary Duncan 
announced that beginning on October 1, 2016, the application 
would use prior-prior income. This change results in earlier 
information, reduces administrative burden, and faster delivery 
of aid to students.
    This type of streamlining is needed in all areas of the 
financial aid process. The upcoming reauthorization provides a 
great opportunity to focus on improving consumer information 
that students and families receive.
    There are over 65 consumer information topics that appear 
in over 140 different regulations, many added in recent years. 
As you might imagine, administrators in my system spend hours 
tracking, collecting, reporting, and disclosing information.
    Navigating consumer information is particularly difficult 
for the 31 percent of our credit students that are first- 
generation. These families have no experience with college, and 
the students truly do not understand the incredible amount of 
information that we provide, not to mention disclosures come at 
a time when students are completing all other steps required to 
enroll in college.
    The most important document for an aid applicant is the 
award letter. It informs the applicant of aid for which they 
may qualify. I use the word ``may'' because each program has 
different eligibility requirements, and based on student 
behavior and enrollment decisions, the student may or may not 
receive those funds.
    There are a number of grant, loan, and work programs that a 
student may see on an award letter, each with its own criteria 
and requirements. It is confusing to the student and tends to 
change each year, making it nearly impossible for a family to 
plan for the student's entire college educational costs.
    Obtaining student loan funding is the most complicated 
process of all the aid programs. The complexity makes it 
difficult for students to understand loan eligibility.
    Reauthorization is a perfect time to examine the need to 
retain annual and aggregate limits based on grade levels, 
dependency status, program of studies, and attendance.
    At Houston Community College, over 18,000 students borrow 
from the student aid programs each year. We need greater 
authority to help borrowers stay within reasonable levels of 
debt, and require additional loan counseling based on the needs 
of our borrowers. Right now, schools have very little control 
over how much students borrow, and are prohibited from 
acquiring annual loan counseling.
    Reauthorization provides an opportunity to make loan 
repayment easier for students. Right now, there are nine widely 
available repayment plans. Understandably, this creates a great 
deal of perplexity for borrowers. Many of our students can 
benefit from income-driven repayment options, but are unable to 
navigate the many programs to determine their best options.
    Houston Community College has been challenged with an 18 to 
22 percent default rate over the past 5 years. We contracted 
with a third-party agency to increase outreach to students and 
assist them in determining the best option for repayment. Our 
fiscal year 2014 draft rate, which was released a couple of 
weeks ago, came in at 11.7 percent as a result of these 
increased efforts.
    Since my time is limited, you will find that my full 
remarks provide more detail and context regarding the student 
challenges with financial aid.
    In conclusion, I have seen the complexity of the student 
aid process increase greatly over the past 25 years. The entire 
process from application to repayment has become an intricate 
puzzle that only a seasoned professional can navigate and 
understand.
    There are numerous opportunities for improvement, 
simplification, and consolidation. It is my hope that today's 
testimony will help you understand the challenges that students 
face as they attempt to work through the process.
    Thank you for your time and attention.
    [The statement of Ms. Soucier follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Guthrie. Thank you. I now recognize Ms. Conklin 
for 5 minutes for your opening statement.

      TESTIMONY OF KRISTIN CONKLIN, FOUNDING PARTNER, HCM 
                 STRATEGISTS, WASHINGTON, D.C.

    Ms. Conklin. Thank you, Chairman Guthrie, Ranking Member 
Davis, and members of the subcommittee for this opportunity.
    My name is Kristin Conklin, and I am the first. I'm the 
first in my family to earn a college degree, the first to 
create jobs and start a business. I was able to graduate 
college in 4 years with a Pell grant and State financial aid 
without any debt.
    That might not be possible for today's students. For 
several years, I have been part of a chorus of experts who have 
called for radical simplification of the Federal financial aid 
program. Three key reforms could improve its effectiveness and 
efficiency.
    First, streamline all Federal financial aid programs into 
one grant program, and all loan programs into one loan program. 
With one grant, we can consolidate the campus-based programs 
into a Pell grant that would be easier to obtain and better 
target with common sense needs analysis changes.
    With one loan program, we'd create one set of annual and 
aggregate loan limits for undergraduates and one set for 
graduates. We would offer uniform borrower benefits in one 
income-based repayment program. Loan eligibility would end at 
new sensible credit hour limits, such as 150 percent of program 
length.
    With one grant, one loan, today's students can easily find 
how much aid they would be eligible for with a simple look-up 
table. Just as easily, students could get instant notification 
on their phones what their Federal awards would be, and what 
monthly repayment would look like.
    Advocates and academics have been calling for this kind of 
transparency and early notification for a decade.
    Second, remove the barriers to on-time completion that are 
built into a Federal loan program. The single most effective 
way to make college more affordable is to reduce the amount of 
time it takes to earn the credential, but here, the Federal 
Government is setting a too low standard backed by its $158 
billion investment, and 47 States follow, which means the 
simple message we send students today is you all are on track 
to graduate in 5 years for a bachelor's degree.
    Why is this? Policy is capping our awards at 12 credit 
hours, which is even more, even for students who like to take 
more. The maximum amount of the grants and loan should be 
pegged to students taking 15 credit hours a term or 30 credit 
hours a year. Students should also have access to grant aid 
throughout the summer.
    Third, I think it's important to include tax credits in 
your financial aid eligibility. Now, this is well beyond the 
jurisdiction of this committee. When this Congress considers 
tax reform, I encourage you to consolidate the multiple 
household based postsecondary benefits into a single refundable 
lifelong learning tax credit.
    These three simple recommendations are more than just 
student-centered, they are evidence-based. Research says that 
student aid works best when it's targeted, appropriately timed, 
and clearly communicated, coordinated with other resources, and 
designed to provide both incentives and support.
    Congress can look to States to see how simplification can 
make a difference for today's students. Indiana, for instance, 
offers larger need-based grants to students who take 30 credit 
hours a year or more, and requires its 21st Century Scholars' 
students to take a true full-time course load to receive their 
maximum grants.
    We have early encouraging results out of Indiana. Students 
receiving this financial aid are taking 30-plus credit hours 
their sophomore year at higher rates than their peers, and 
improvements are particularly stronger for the 2-year sector.
    Minnesota consolidates its Federal and State aid, and it 
gives large awards to students who take true full-time course 
loads. As a result, students in Minnesota, two-thirds of them, 
of the full-time students, are now on track to graduate in 4 
years with a bachelor's degree or 2 years for an associate's 
degree.
    In California, Pell grants act as a simple, generous Cal 
grant. This contributes to the University of California's 
campuses enrolling a larger percentage of Pell grant students 
than any other flagship in the country.
    The Nation's Federal financial aid system was built for 
another era. In 1965, when the first significant Federal 
financial aid program began, 23 percent of Americans had a 
college degree, and that attainment level was sufficient for a 
vibrant middle class. That economy and those times are no more.
    By 2020, 65 percent of our jobs will require some form of 
postsecondary education beyond high school. A simplified 
Federal financial aid system is part of the solution for our 
Nation. That means many more skilled graduates, a stronger 
middle class, and more opportunities.
    Thank you, and I welcome your questions.
    [The statement of Ms. Conklin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Guthrie. Thank you for your testimony. Mrs. 
Copeland-Morgan, you have the floor, you can get me back on the 
Cats versus Bruins that is coming up this weekend. I am just 
kidding. You are recognized for 5 minutes to testify.

  TESTIMONY OF MRS. YOULONDA COPELAND-MORGAN, VICE PROVOST OF 
  ENROLLMENT MANAGEMENT, UNIVERSITY OF CALIFORNIA, LOS ANGELES

    Mrs. Copeland-Morgan. Thank you, Chairman Guthrie, Ranking 
Member Davis, and members of the subcommittee for inviting me 
to appear before you today as you consider ways to strengthen 
Federal student aid to better meet the needs of students.
    My name is Youlonda Copeland-Morgan. I am the vice provost 
for enrollment management at the University of California, Los 
Angeles. My professional dedication to college affordability 
and access long preceded my time at UCLA, but I'm here today to 
share some of the successes we have had at the University of 
California, and make our recommendations to improve the Federal 
student aid system.
    UCLA is an academically prestigious institution, and has a 
consistently strong record of admitting, enrolling, and 
graduating low-income students. In fact, all of the University 
of California's 10 campuses are equally committed to college 
affordability and access.
    UC's core philosophy is to ensure that all eligible 
students can enroll at any of our campuses and to keep UC 
affordable. We have succeeded at this, as demonstrated through 
these facts.
    UC enrolls far more Pell grant recipients than any other 
top research university in the country. In 2013/2014, 40 
percent of our undergraduates were Pell grant recipients 
compared to 22 percent at other comparable public universities. 
Forty-two percent of UC's undergraduates are the first in their 
family to attend college. More than half of our California 
undergraduates pay no tuition.
    But enrolling low-income students is not enough. We need to 
see them graduate. In this respect, UC is also succeeding. UC's 
Pell grant recipients' 6-year graduation rates are nearly 
identical to those of their middle- and upper-income peers.
    UC's success is largely the result of its partnership with 
the Federal Government and the State of California, which 
together provide a strong network for our California students.
    My written statement outlines more details, but in the 
short time that I have this morning, I would like to outline 
some of UC's recommendations to the subcommittee.
    My simple message is that Congress must increase its 
investment in Federal financial aid programs, assure that 
Federal student aid and subsidies are targeted to students with 
the most financial need, and improve the programs so that they 
are easy for students and their families to understand and 
access.
    Before I start, I want to note that President Trump's 
recently released budget plans for next year would cut more 
than $50 billion from nondefense discretionary appropriations, 
leading to devastating cuts in all Federal education programs, 
and essentially eliminating the opportunity for any significant 
increases in the Federal investment in education for a long 
while.
    Congress must reject these cuts, and UC and staff 
recommends strong, sustained, and increased funding for the 
Pell grant program to increase the maximum award. Continue 
annual inflationary adjustments for the award, restore year-
round Pell grants, and provide a Pell bonus to students who 
take increased credits to accelerate their time to completion.
    Protect and strengthen Federal campus-based aid programs, 
which are critical tools for assisting low-income students in 
pursuing postsecondary educational opportunities.
    Simplify the student aid programs and FAFSA to increase the 
number of very low-income students and families who apply for 
and receive financial aid, but assure that Federal aid remains 
targeted to the most financially needy students.
    Updating the Federal Student Loan Program is a high 
priority in the reauthorization for UC, and we will support 
changes that enhance student benefits and improve how loans are 
administered, dispersed, serviced, and repaid.
    UC would strongly oppose reform proposals that eliminate 
in-school interest subsidies for undergraduate borrowers, 
limits borrowers, repayment options, or curtails graduate 
incentives to engage in public service.
    Again, thank you for this opportunity to testify. The 
University of California looks forward to working with you to 
reauthorize the Higher Education Act to expand and improve the 
law.
    [The statement of Mrs. Copeland-Morgan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Guthrie. Thank you for your testimony. The ranking 
member just reminded me that she is an alum of UCLA, and her 
husband is from Kentucky.
    Mrs. Copeland-Morgan. She's not conflicted though.
    Chairman Guthrie. Dr. Chingos, you are recognized for 5 
minutes for your testimony.

     TESTIMONY OF MATTHEW M. CHINGOS, SENIOR FELLOW, URBAN 
                  INSTITUTE, WASHINGTON, D.C.

    Mr. Chingos. Thank you, Chairman Guthrie. Thank you, 
Ranking Member Davis, and members of the committee for the 
opportunity to testify today.
    I'm an education policy researcher at the Urban Institute, 
and the coauthor of ``Game of Loans: The Rhetoric and Reality 
of Student Debt.''
    The views expressed in this testimony are my own, not those 
of any organization with which I'm affiliated, its trustees, or 
its funders.
    The main point I want to make today is that the student 
loan crisis in the news is largely a distraction from the real 
problems facing borrowers and taxpayers. The reality is that 
most undergraduates borrow less than $40,000, and the average 
economic return to a college degree is as high as it has ever 
been, despite the rise in tuition. The borrowers most likely to 
struggle are those who never complete a degree, many of whom 
have relatively small amounts of debt.
    Student borrowing has increased dramatically. As a result, 
Americans are getting more education, as well as Federal and 
State policy changes.
    The available evidence suggests the typical borrower today 
is in a stronger financial position than she was a generation 
ago, and the typical monthly burden of student loan debt is 
largely unchanged since the early 1990s. Most households with 
education debt pay 4 percent or less of their income each month 
for student loans.
    Yet, all is not well with student lending in the United 
States. In fact, there are five crises in student lending. 
First, we have a completion crisis. Only 59 percent of students 
who start at 4-year public colleges earn a bachelor's degree 
from any institution within 6 years. At community colleges, 
it's 39 percent.
    Second, we have a default crisis. Millions of borrowers are 
in default and tend to be those with the least debt.
    Third, we have a repayment crisis. Borrowers could avoid 
defaulting by enrolling in income-driven repayment, but 
existing programs are confusing and difficult to navigate.
    Fourth, we have an information crisis. Many students do not 
understand what they're getting into. Only a quarter of first-
year students can accurately report how much they have 
borrowed.
    Finally, policymakers and taxpayers may soon face a cost 
crisis in the student lending system, especially because loan 
forgiveness programs may have larger costs than projected.
    The popular media narrative of a broad-based student loan 
crisis is problematic because it leads to the wrong policy 
solutions by focusing on all borrowers, and especially 
borrowers with the most debt, rather than on those who most 
need help.
    For example, proposals to reduce interest rates on 
outstanding loans, often called ``refinancing,'' would 
disproportionately benefit affluent households. Instead, 
Congress should consolidate and simplify the Federal student 
aid programs to make the best use of limited taxpayer dollars 
to help students attend and complete college.
    First, there should be one Federal grant program. 
Eligibility should be determined automatically using tax 
records. All Federal subsidies are currently delivered through 
other programs, such as the subsidized loan programs, and 
should instead be delivered as upfront grants. For example, 
year-round Pell could be reinstated.
    Second, there should be one Federal loan program focused on 
undergraduate students, not a blank check for parents of 
graduate students. The Parent PLUS Program should be eliminated 
as creditworthy parents can obtain credit in the private 
sector.
    The Grad PLUS Program should be limited or eliminated. 
Graduate students attending programs with a return that 
justifies the cost will be able to obtain funding in the 
private market.
    Third, there should be one income-driven repayment program 
which allows borrowers to make loan payments as a percentage of 
their income through the tax withholding system. The sole 
purpose of the income-driven repayment program should be to 
insure borrowers against the risk that they'll be unable to 
afford their payments.
    Forgiveness should only be provided as a last resort, and 
the Public Service Loan Forgiveness Program should be 
eliminated.
    Policymakers seeking to subsidize employment in certain 
sectors of the economy should do so directly rather than 
through loan forgiveness.
    In conclusion, student loan debt is not inherently good or 
bad. It enables students to make investments in their futures, 
but those investments do not always pay off. The key challenge 
facing policymakers is to reduce bad investments and the harm 
they cause while resisting political pressure to further 
subsidize individuals who enjoy taxpayer subsidies, but do not 
need them.
    The upcoming reauthorization of the Higher Education Act 
provides an important opportunity for Congress to ensure that 
the Federal student aid programs do less harm and more good for 
students and taxpayers.
    Thank you again for the opportunity to testify today. I 
look forward to answering any questions.
    [The statement of Mr. Chingos follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Guthrie. Thank you very much. I thank all the 
witnesses for testifying. Now, we will go to member questions. 
I will first recognize the chairman of the full committee, Mrs. 
Foxx of North Carolina. Dr. Foxx. I apologize.
    Dr. Foxx. It is okay. Thank you very much, Chairman 
Guthrie, and I want to thank all of the witnesses. You have 
given great testimony this morning. We appreciate you being 
here.
    Ms. Soucier, I am aware of Houston Community College 
participating in ``Aid Like A Paycheck'' experiment, where 
students receive aid incrementally instead of in a lump sum at 
the beginning of the year or semester. Have you seen any 
results from this experiment or any evidence that such a 
disbursement method would be useful for both students and 
taxpayers?
    Ms. Soucier. Yes, thank you. We have been participating in 
Aid Like A Paycheck for the last 3 years. The data are just 
starting to come in, but internally, we have seen improvements 
in retention of students, not for the reasons why you might 
have guessed.
    We have a system in place right now called ``Return of 
Title IV,'' so when a student withdraws during a semester, we 
have to recalculate the rate eligibility. And a lot of times 
they have to return aid that they already received, causing the 
students to be left with a balance due, which means as long as 
that balance is due, they can't come back to school, which is a 
problem, because many of our students drop out for personal 
reasons and life happens, basically. So, they want to come 
back, but they can't until that debt is paid, and the problem 
is they don't have the funds to do so.
    So, Aid Like A Paycheck, what it has done is it has spread 
out the disbursements over the entire semester, so we give out 
the disbursements every 2 weeks. So, those students who have 
had to withdraw, they now no longer owe money because they 
haven't received the funds yet. So, recalculating their aid is 
causing them to basically break even for the most part, and in 
a lot of cases, we actually owe them a little bit of money 
based on the calculation, return on the Title IV calculation.
    So, we have seen that students don't have that debt when 
they want to come back the next semester or a year later. So, 
it has benefitted students greatly in that aspect.
    Dr. Foxx. Thank you very much, great insight. Dr. Chingos, 
thank you very much for your book. I am going to read it this 
weekend. You advocate eliminating subsidized loans and instead 
using the dollars to provide grants that reduce the cost of 
college for students.
    Ms. Conklin's testimony also suggested a one loan program 
that eliminates the distinction between the subsidized and 
unsubsidized loans. Ms. Soucier discusses the confusion in 
delays.
    Can you expand on why you suggested elimination of the 
undergraduate subsidized loan, and your thoughts on whether 
this subsidy is effective in helping the neediest students, or 
are there other ways we could better target limited Federal 
funds? Actual limited, hard-working taxpayer dollars, which is 
what we are talking about.
    Mr. Chingos. Thank you for the question, Dr. Foxx. The idea 
of eliminating the in-school interest subsidy on loans isn't to 
take resources away from anyone, but it's to deploy them in the 
way where they are most likely to impact behavior.
    So, if we want to help low-income students complete 
college, I think it's better if we're going to give them a 
subsidy to give it all as an upfront grant, to reduce the price 
that they pay for college on day one, rather than reducing an 
interest rate that accrues during college.
    So, I just think it makes the most sense to provide all 
those dollars as upfront grants rather than burying them in a 
subsidy that students may not really understand.
    Dr. Foxx. Thank you very much. Ms. Conklin, you bring up an 
important point about what constitutes full-time enrollment. As 
you point out, 12 hours is now considered full-time by the 
Federal Government. It is a message to students because only 55 
percent of them are graduating within 6 years.
    I am intrigued by the State results that States have seen 
when setting the expectation for on time completion. Would you 
want to say a little bit more about what this does about 
college affordability, and can you explain the relationship 
between enrollment intensity and the odds of completion?
    Ms. Conklin. Dr. Foxx, thanks for that question. I'll 
probably run out of time and submit a full answer for the 
written record.
    Simpler tells the truth they need to hear, the best way you 
are going to save money, as much as 50 percent on your 
education, is to finish on time. When you give these realistic 
expectations to students, as we have seen in Indiana, we not 
only tell students what they need to do, we tell colleges.
    In Indiana, they've started opening up their summer 
resident halls at a discount or for free. We see reduced 
tuition. We see changes in guidance. That is why we see the 
improvements across the board in both 2-year and 4-year 
sectors.
    Chairman Guthrie. I think maybe you will be able to cover 
that in further time, but the Chairwoman's time has expired.
    Dr. Foxx. Thank you very much.
    Chairman Guthrie. I appreciate your answer. We will get to 
that, I am sure, as we move forward. I recognize the ranking 
member, Ms. Davis, for 5 minutes of questions.
    Mrs. Davis. Thank you, Mr. Chairman. I wanted to direct my 
first question to Mrs. Youlonda Copeland-Morgan. The 
President's budget would make significant cuts, as we know, to 
campus-based aid programs, and would deprive millions of 
students of much-needed aid.
    How would the elimination of these programs or a reduction 
in funds impact the students on your campus and across 
California, and can you be as specific as possible?
    Mrs. Copeland-Morgan. Yes. Let me just state for the 
record, I'm a first-generation college student and benefited 
from all of these programs, and as a result of that, the 
Federal Government made less investments in my children, which 
is exactly what we are trying to do here.
    First of all, these programs are critical to not only 
access, but to retention of these students. The idea that we 
would have one loan and one grant sounds simple enough, but, in 
fact, life is complex and being a student is complex.
    Our responsibilities as financial aid officers are to 
ensure that students have mentors there who can help them fill 
the gap, and that's what campus-based aid does. Without campus-
based aid, the Federal Perkins Loan Program, Work Study 
Program, and FSEOG Program, we would not have the tools that 
are necessary to target the most neediest students, and that's 
what really allows us not only to provide access to these 
students, but to graduate them.
    So, we're advocating - and I've, as past chairman of the 
College Board, on our national association, and for decades, 
we've been saying especially because of the loss in the Federal 
Pell grant program, the loss of purchasing power there, that 
we're advocating that we retain these programs. They work.
    We certainly believe that there are more improvements that 
can be made, but the continuous investment in campus-based 
programs, increase in maximum Pell grant amounts, and continued 
Federal investment in these programs are key given the 
demographics of our society today.
    Mrs. Davis. If we were somehow able to keep the amount the 
same, and that's the difficulty with trying to simplify is that 
we lose generally whenever we try to consolidate, that seems to 
happen, would there be a reduction in the complexity if, in 
fact, that could be done at some levels, and why do you think 
that is not likely to happen?
    Mrs. Copeland-Morgan. I doubt it because the financial aid 
program--financial aid comes from State sources and 
institutional sources, which all have different forms, but 
right now, the current FAFSA allows many States to eliminate 
having their own application.
    So, eliminating or simplifying, oversimplifying, the FAFSA 
form would simply result to where we were decades ago, where 
every time a student wanted to apply for State aid or 
institutional aid, they had to fill out a separate application 
because the Federal Needs Analysis did not meet the needs of 
the States or institutions who were interested in making sure 
that their financial aid is targeted to the most needy 
students.
    I think of this sort as the IRS process. We do not allow 
all citizens to fill out a 1040A. The IRS process is 
complicated, overly complicated, but the idea is that we want 
to be able distinguish our low-income students from middle-
income students, from those families who have the ability to 
pay.
    So, I do believe that going back, oversimplifying the FAFSA 
form, will result in a more complex process for our students.
    Mrs. Davis. Thank you. Ms. Soucier, I wonder if you could 
speak for a second, I know in your written testimony you spoke 
about the fact that many, many students on campus are subject 
to FAFSA verification, and you mentioned out of 80,000 aid 
applicants, 38,000 were selected for verification. And you also 
indicated that low-income students who may have a harder time 
providing required documents are more likely to be forced out 
through the verification process because they are not able to 
complete that.
    Could you speak to us a little bit about that, and how do 
we deal with that? What happens to those students?
    Ms. Soucier. Sure. I'd be happy to. In what I call my 
``backroom operation,'' I have 18 people, and all they do is 
verification day-in and day-out. There are a multitude of 
different types of students that attend Houston Community 
College. We're a melting pot. Our city has people from all 
over, with all different circumstances.
    So, we deal with a lot of unusual situations, especially 
with the tax law. We deal with a number of students who were 
unable to fill out their taxes correctly, and we have to look 
at that information when we're doing verification.
    So, basically what's happening is the forms themselves are 
taking time for students to complete.
    Chairman Guthrie. Maybe we can get to those as we move 
forward.
    Ms. Soucier. Yes, I'd be happy to give you more details on 
that.
    Chairman Guthrie. I recognize myself for 5 minutes for 
questions. Ms. Soucier, the statistics Dr. Chingos highlighted 
in his written testimony were stunning. According to a study by 
The Brookings Institute, which Dr. Chingos coauthored, only a 
quarter of first year students could accurately report how much 
they had borrowed, and 14 percent of the students who had 
borrowed money thought they had no debt at all.
    This information problem is very concerning to me, and it 
is why I introduced the bill I mentioned earlier, that would 
require improved Federal aid counseling for aid recipients 
throughout their education.
    Are you noticing trends Dr. Chingos discussed in his 
testimony on your campus, and can you discuss the benefits to 
students where you have been able to counsel them about their 
financial aid?
    Ms. Soucier. Absolutely. As a matter of fact, we have six 
financial coaches on staff at our institution. Those coaches 
work very closely with students that are willing to come to our 
counseling sessions and are willing to come to our workshops 
that talk about debt and student loan repayment options. 
However, we can't require it, so we are prohibited from 
requiring them to come before we can deliver the funding to 
them, so it's difficult to get students to want to come to 
these sessions and learn about student aid and student loan 
debt.
    If we had the ability to require them to even do an online 
process, put together some online videos and watch what it 
means to have a student loan and repay those student loans, I 
think that would benefit them greatly.
    Our students are defaulting on the loans because they don't 
understand it. They don't understand they even took out a loan. 
All they're doing is signing a piece of paper, electronically, 
online. They're accepting a loan. They're going in and doing a 
quick and easy online promissory note, and they're not reading 
the fine print, and they don't understand what they're getting 
into until they graduate and walk away.
    Chairman Guthrie. I would like to move to Ms. Conklin. 
Thank you for your answer. Ms. Conklin, I noticed that HCM's 
proposal eliminates current deferment and forbearance options, 
which allow borrowers to suspend payments during times of 
economic hardship.
    Can you explain how the Technical Panel arrived at the 
conclusion the elimination was better for borrowers, and can 
you discuss the impact such a proposal would have on borrowers 
struggling to make their payments?
    Ms. Conklin. Thank you, Mr. Chairman. So, what he's 
referring to is the Technical Panel I led back in 2012, a 
bipartisan group of academics and financial aid experts.
    What we recommended was the single loan program is an 
income-based loan repayment program, so basically a family 
would have the ability to take up to 300 percent of their 
family income--300 percent of their family income would be 
deducted from their available income--and then they didn't have 
a decision to pay up to 15 percent of that.
    So, being able to adjust your payments based on your income 
is the relief that you would need in repayment. Again, you take 
the lower of the two payments. So, it's putting everybody into 
that default loan repayment, but itself is the borrower 
benefit.
    Chairman Guthrie. Thank you. Now, Dr. Chingos, the topic of 
the Bennett hypothesis would suggest that increases in 
available Federal student aid corresponds with increased 
tuition prices, and often comes up as we discuss the aid 
programs provided by the Federal Government.
    The last thing we want to do as Federal policymakers is 
make higher education more expensive. Can you discuss your 
thoughts on the hypothesis and what we should consider as we 
reauthorize the Higher Education Act?
    Mr. Chingos. Right. I think the Bennett hypothesis had a 
lot of intuitive appeal, make more money available for 
something and it enables institutions or, in the long run, at 
least makes it easier for them to raise their prices.
    The evidence on it is somewhat mixed. I think Federal 
policymakers ought to be most concerned about situations where 
the Federal funding footprint is the largest, so cases like 
with graduate loans where graduate students can borrow up to 
the total cost of attendance, no questions asked, I think we 
should be concerned there.
    I think we ought to be concerned with institutions where 
Federal grants and loans make up a very large share of student 
aid.
    Chairman Guthrie. Thank you. That concludes my questions. I 
will now recognize Ms. Adams. I am sorry. I will recognize Mr. 
Espaillat for 5 minutes for questions.
    Mr. Espaillat. Thank you, Mr. Chairman. Dr. Chingos, you 
have mentioned you advocate for the elimination of loan 
forgiveness programs. Loan forgiveness programs have for many 
years, since at least 2007 for sure, have been a part and 
parcel of a mechanism to bring professional help and public 
service to distressed areas across the Nation.
    For example, school districts that have shown for many 
years to lack academic achievement levels that we could all be 
proud of have used forgiveness loans to attract very qualified 
teachers to come to those school districts, to try to pull them 
by their bootstraps.
    Communities that do not have the adequate health care often 
resort to loan forgiveness programs to bring in doctors and 
nurses that will help them become healthy again.
    So, this is a very important program, not only for those 
that will benefit from the loan forgiveness, but for 
communities across the country that are facing dramatic 
challenges.
    Why adopt this heavy-handed approach to eliminate loan 
forgiveness programs when, in fact, these are essential and 
basic to many neighborhoods throughout the country, and 
particularly those neighborhoods that are facing great 
challenges in education, health care, and other arenas where we 
could bring the best professionals that we have available?
    In some cases, we have had to go abroad to bring qualified 
teachers to our school districts. We have had to go abroad to 
bring medical professionals to our neighborhoods.
    Why be punitive and say you are not going to be rewarded 
for coming into these very and distressed neighborhoods that 
require the public service that you are able to provide?
    Mr. Chingos. Thank you, Congressman, for the question. My 
view is that loan forgiveness is a very blunt instrument for 
attacking those extremely important problems that you 
identified. The problem is that loan forgiveness, particularly 
the public service loan forgiveness program, delivers what 
amounts to taxpayer subsidies in a very arbitrary manner.
    So, it's true that those high needs areas you identified 
could potentially benefit, but roughly one-quarter of the 
economy is defined as public service under the law. So, the 
amount of benefits someone gets relates to sometimes an 
arbitrary distinction between whether their organization 
qualifies or not, so doctors in nonprofit hospitals get it, but 
not doctors in for profit hospitals, even though they may be 
doing similar work. And the amount of benefit you get relates 
to not just the importance of the work you're doing, but how 
much you borrowed for school.
    So, you could have two people working in the same 
nonprofit, one of them worked their way through a public 
college, didn't take on a whole lot of debt, and the other 
person went and borrowed as much as they could to get an 
undergraduate degree and a graduate degree somewhere, and that 
second person would get a whole lot larger subsidy.
    So, I think there is just much better targeted ways of 
helping people and, as I said in my testimony, subsidizing 
people in certain sectors of the economy rather than 
forgiveness.
    Mr. Espaillat. Getting to the minutia of things, sometimes 
you could lose the forest for the trees. Let me give you an 
example. Bilingual teachers, certified bilingual teachers, 
which are essential to many neighborhoods, many districts, many 
States across the country, where we want to bring recent 
arrivals, English language learners up to par with everybody 
else, are lacking. And as a result, we have to go to Spain, 
Chile, all over the planet to get these certified teachers to 
come in, these bilingual teachers to come into our districts.
    Why not create an incentive in our higher education system 
to have the best that are local here to come to those 
districts? Health areas, many districts lack primary care 
physicians, emergency room physicians. We have to go abroad to 
get doctors. By the way, some of them may not be able to come 
in through the, because of the Muslim ban now. But we have to 
go abroad to get these doctors.
    Why not create an incentive here locally for our U.S. 
students to come into these districts and get access to these 
loan forgiveness programs? What is wrong with that?
    Mr. Chingos. My view is those incentives be provided 
directly by either tax credits to those people or just ways to 
increase their salaries and not through loan forgiveness 
programs that also have to give away money to a bunch of other 
people.
    Mr. Espaillat. I think tax credit programs are often 
backdoor mechanisms that are not always needed by the 
recipient. Thank you, Mr. Chairman. I yield my remaining time.
    Chairman Guthrie. Thank you, appreciate it. I now recognize 
Ms. Stefanik for 5 minutes for questions.
    Ms. Stefanik. Thank you, Mr. Chairman, and thank you to the 
witnesses for your testimony on this very important issue 
today.
    I also was the first member of my immediate family to 
graduate from college, so making higher education more 
affordable and more accessible is one of my top priorities.
    I have worked closely with schools in my district, in New 
York's 21st congressional district, to address the challenges 
of affordability, and these conversations, particularly with 
community colleges, have laid out what can be accomplished if 
we modernize the Federal Pell grant program.
    So, my first question is for Ms. Soucier. You and other 
witnesses today have mentioned year-round Pell grants as a way 
to help students complete their education more quickly. You 
also mentioned the implementation difficulties of the old year-
round Pell grant program.
    Earlier this month, I reintroduced the bipartisan Flexible 
Pell Grants for the 21st Century Students Act, which reinstates 
year-round Pell grants, but my bill also addresses 
implementation concerns by specifying that institutions can 
decide which award year to assign the payment toward for 
payment spanning two award years.
    Would this address some of the implementation concerns you 
mentioned, and can you expand on how you believe year-round 
Pells would benefit students?
    Ms. Soucier. Well, I think year-round Pell was a success 
once we implemented the complexity of it. It took us a couple 
of years to get our systems to understand how to treat students 
under that new framework, but once we did it, we started seeing 
the benefit of it.
    I, personally, did my bachelor's degree in 2-1/2 years, and 
I know how much money that saved me. I didn't have year-round 
Pell back then. I just had the straight Pell and lots of 
student loans.
    I know it is a tremendous saving of time and money to 
enable students to go year-round. It's also a retention tool 
because keeping the student engaged over the summer is a big 
deal. We lose a lot of students, especially at the university 
level, during the summer, as things start to happen in their 
life. Keeping them engaged during the summer is a huge benefit 
to the student and the school, and improves completion rates.
    So, I do know for a fact year-round Pell benefitted 
students, and we were actually unhappy to see it go away when 
it did.
    Ms. Stefanik. Thank you for adding in the importance of 
college completion, because as we grapple with the student loan 
crisis, raising that completion rate is a critical piece to the 
puzzle.
    My next question, which is on the same issue, is for Ms. 
Conklin. In your testimony, you discuss how year-round 
assistance and increased flexibility would help improve access 
for nontraditional students.
    Can you expand upon how increased flexibility in the 
disbursement of Federal Pell would assist the student, for 
example, who is slightly older, is working part-time, is a 
parent?
    Ms. Conklin. Thank you, Congresswoman, for your focus on 
what we call ``today's students'' in the business. Most of our 
students today are what used to be nontraditional, and they, in 
fact, do have to juggle work and children in order to earn 
their credential.
    So, what we are seeing more and more in higher education is 
real innovation in delivery, where people are able to do self-
paced learning, we're able to put remedial courses in the 
middle of the credit-bearing courses, and give students 
additional support so they get out of remedial education 
quickly. All those innovations require flexibility around the 
disbursement of money.
    Some of our most successful programs for nontraditional 
students, I think about CUNY ASAP, which is being replicated in 
other places like Ohio, that is a set of guided pathways for 
nontraditional students. It costs more in those first 2 years 
to be able to educate them, but at the end, it's a lower cost 
per degree for taxpayers and for students.
    So, what we need to be able to do is frontload some of that 
Pell money for those early years, to fund that integrative 
program which has very good results.
    Ms. Stefanik. Thank you very much. I just want to take a 
moment to thank the committee for their support and thank my 
colleagues who have signed on as cosponsors. This is a 
bipartisan bill, and for any of my colleagues who are not 
cosponsors, I want to encourage you to look at the Flexible 
Pell Grants for 21st Century Students Act.
    This is modernizing Pell. It is bipartisan, and I am 
hopeful we can get this passed in this Congress. Thank you, and 
I yield back.
    Chairman Guthrie. Thank you. Thank you for yielding. I now 
recognize Ms. Adams for 5 minutes of questions.
    Ms. Adams. Thank you, Mr. Chair, and thank you, Ranking 
Member Davis, for hosting this hearing, and to those of you who 
are here testifying, we thank you very much as well.
    Ensuring that students have greater access to an affordable 
higher education is critical to adjusting our Nation's skill 
gap and preparing Americans for the jobs and the economy in the 
21st century. I would just add to the comments that have been 
made that I, too, was a first-generation college student.
    Last year's Republican platform called for a stop to the 
direct loan program and to return to a system similar to the 
Federal Family Education Loan Program, where private lenders 
originated federally guaranteed loans and services. Think 
tanks, however, have argued that going back to this type of 
system would only increase costs to the taxpayers.
    Therefore, more recent proposals have now focused on 
scaling back or eliminating Federal lending for two groups. The 
authors of these proposals argue that because these two groups 
of individuals have a credit history, the private market can 
serve them just as well as the Federal Government, if not 
better.
    My question, Mrs. Copeland-Morgan, I want to focus on 
Parent PLUS loans, and would like to know if eliminating Parent 
PLUS loans would be detrimental to students in your opinion, 
and, if so, why?
    Mrs. Copeland-Morgan. Indeed, it would be detrimental to 
the student and to the families. The fact is not all families 
can get access to private loans. Secondly, there are predatory 
practices out there in the private loan area, an area that 
since going to direct loans we've spent less time counseling 
parents and students on, and also PLUS loans allow families who 
have not had the ability to save for college to contribute to 
their children's education. I think that is a fact that is 
overlooked.
    The private loan market simply did not serve our most 
neediest families well, nor did it serve those families, 
working middle-income families, well at all.
    So, I would certainly remind us to look at some of the 
challenges that we were dealing with before direct loans.
    Ms. Adams. Thank you for that response. As you mentioned, 
eliminating Parent PLUS loans would be detrimental to a number 
of students, particularly students at HBCUs and low-income 
students seeking graduate degrees.
    I have a letter, Mr. Chair, from Dr. Michael Lomax, 
president and CEO of UNCF, which supports college success for 
minority students, outlining the need to provide Federal 
investment in Pell grants, including restoring year-round Pell, 
increasing the maximum awards, and so forth, and I would like 
to submit this for the record.
    Chairman Guthrie. Without objection, so ordered.
    Ms. Adams. Thank you. Knowing that the President's budget 
blueprint raised nearly $4 billion from Pell, this letter is 
even more important so I thank you for receiving it.
    Mrs. Copeland-Morgan, the reauthorization of the Higher 
Education Act affords Congress with an opportunity to simplify 
the financial aid system, specifically FAFSA. Research has 
shown that this form presents barriers for low-income and 
first-generation students. In fact, about $24 billion goes 
unclaimed each year, including $2.7 billion in Pell grant 
funding.
    Although the form has been simplified throughout the last 
two decades, I believe that more can be done, but I also know 
that simplification comes with tradeoffs. Making it too simple 
means aid will be less targeted by States and institutions, 
many of which rely on information found on the FAFSA to 
determine State and institutional aid, and may no longer have 
sufficient information to make accurate awards.
    Do you agree that these are valid concerns, and, if so, 
what considerations should we be mindful of as we work to 
simplify FAFSA?
    Mrs. Copeland-Morgan. I do agree that oversimplification is 
a valid concern. I think there are improvements that can be 
made, for example, taking advantage of the Federal Government's 
vast database around other need-based programs and simplifying 
the process for low-income students who have already been 
verified through other Federal means-tested programs. It's one 
way of simplifying that.
    I think also if we go back to--I want to emphasize this--
back to an oversimplified Federal form, it will complicate the 
process for low-income students. We've been here before, where 
every State had its own form, every institution had their own 
form, because the needs analysis from the Federal Government 
was not sufficient.
    The other alternative is to have students use documents 
like the College Board's Profile Form, which is a fee-based 
form, which would be another barrier to low-income students.
    Ms. Adams. Thank you very much. I am out of time. I yield 
back.
    Chairman Guthrie. Thank you. I now recognize Mr. Allen for 
5 minutes of questions.
    Mr. Allen. Thank you, Mr. Chairman, and thank you, panel, 
for being with us today.
    Mr. Chingos, the current year statistics point that 
students are actually entering higher education, and obviously 
the result is that they do not really know exactly why they are 
there, or they would probably complete that education.
    In other words, you ought to begin with the end in mind, 
meaning that there should be a career path. That is the reason 
you get an education, is to get a good job. Everywhere I go in 
the school systems, I ask these students, why are you getting 
an education? A lot of them do not know why they are doing 
that.
    So, in your testimony, you state that there are five real 
loan crises, and none of them involve the $1.3 trillion in loan 
debt, the number we commonly cite. Why do you think this is the 
case, and how can we turn the narrative around to focus on 
solutions to these very high education challenges facing 
students and borrowers?
    Mr. Chingos. Thank you, Congressman, for the question. I 
think the way the narrative around student loan debt has 
evolved to focus so much on that $1.3 trillion number has as 
much to do with who is borrowing as how much they're borrowing.
    How things have shifted over the last couple of decades is 
that in earlier years, Federal student loans were a targeted 
program. They were means tested for almost their entire history 
until the 1992 reauthorization of HEA. The folks that borrow 
tend to be lower- and middle-income people.
    Now, it evolved to a point where high-income students were 
borrowing a lot, they were especially borrowing a lot to go to 
graduate school, and now the top fifth of the income 
distribution holds something like 40 percent of the outstanding 
student loan debt.
    So, I think what you're seeing is relatively affluent, 
politically more vocal groups of people trying to represent 
their interests, which focus on the $1.3 trillion, getting 
forgiveness for large graduate loans, getting reductions in 
their interest rates, when the real problems are among folks 
who are struggling under small amounts of debt, low-income 
single moms who have a couple of credits at a for-profit 
college, a couple thousand dollars in debt. Those are the 
people we should be worried about, even though they're not 
always the people who get heard the loudest.
    Mr. Allen. You suggested that the current Federal Student 
Loan Aid Program is doing harm to students. Where do you see 
this the most? With the low-income population borrowing 
substantial sums of money to get an education? Where do you see 
the most damage here?
    Mr. Chingos. The real tradeoff we face here is between 
wanting to provide access to everyone and wanting people to 
make good investments that will pay off for themselves, because 
it's their time and money, too, and for taxpayers.
    So, I'm very sympathetic to the need to provide as much 
broad access as possible, but, at the same time, there are lots 
of students going into programs with very poor track records of 
success, very high default rates.
    So, I think in the next reauthorization of HEA, it's worth 
taking a hard look at what programs are eligible for students 
to use Federal dollars to go to them, and how do we hold them 
accountable, by also providing access to students.
    Mr. Allen. Ms. Conklin, as you are aware, the Federal Work 
Study Program received its funding through a complicated two 
part formula. Can you discuss whether you believe the current 
funding structure is appropriately targeting aid to needy 
students, and why this matters to the program's effectiveness?
    Ms. Conklin. Thank you. It's a good question, and I think 
it's important to note that Technical Panel whose 
recommendations I represented today did call for consolidating 
Work Study into a Pell grant program, but I can see a path that 
looks like what the chairman described, one grant, one loan, 
one work study, but that work study would need to be reformed.
    Right now, again, the work study distribution is built on 
an old system. Not all institutions are eligible for it. We see 
a skewing of dollars that doesn't look like need. Ten percent 
of work study families make more than $100,000 a year. Only 5 
percent of public 4-year students are getting work study.
    Columbia University, for instance, is one of those 
institutions first into the program. They're getting three 
times more money than Florida State, who has four times more 
students and many more Pell students.
    So, again, simpler targets our Federal dollars on the 
neediest students and the broad group of open access 
institutions that support them, so if we keep work study, let's 
upgrade it for today.
    Mr. Allen. Thank you so much, and I yield back.
    Chairman Guthrie. Thank you. The gentleman yields back. I 
was at parent weekend at my daughter's college in Chicagoland 
the weekend before the election.
    The best political ad I saw all season was this guy came 
on, and I said I am really going to like this guy, hope I never 
have to pronounce his name, because the political ad was about 
dealing with his name, but I am going to do it, and I 
appreciate it, and it was a great ad.
    It was my good friend from Illinois, Mr. Krishnamoorthi. 
You are recognized for 5 minutes for questions. That was a good 
ad.
    Mr. Krishnamoorthi. Thank you, Congressman. Just call me 
Raja. Thank you so much. I am honored to be here, to be able to 
ask questions of you folks.
    I was able to attend college based on financial aid and 
loans and scholarships. You know, making postsecondary 
education more affordable and accessible is one of my top 
priorities, and I believe that financial aid should be enhanced 
if the cost of college is indeed a severe impediment to 
accessing postsecondary education.
    I have a couple of quick questions that I want to ask of 
you. Dr. Chingos, my constituents are telling me that colleges 
are spending a lot of money on fancy dining halls and rock 
climbing walls or unnecessary administration. How can we nudge 
these schools and institutions to lower the cost of college, 
which will give greater purchasing power to enhance Pell grants 
and other student aid?
    Mr. Chingos. Thank you, Congressman, for the question. I've 
heard those concerns as well. I think they do apply to a 
particular part of the higher education market. I don't think 
at community colleges we're seeing lazy rivers and climbing 
walls, so I think it's important to bear that in mind.
    At the same time, I think we ought to be concerned about 
rising college costs. So, as Congress thinks about 
reauthorizing the Higher Education Act, you have to go back and 
worry about this Bennett hypothesis, as the chairman 
recognized. Are these programs making it too easy for colleges 
to raise their prices and spend money on things that students 
want?
    The problem is that to push back against that, you need to 
have the Federal Government getting involved and trying to 
create incentives for how institutions spend their money, so 
sort of a question over the Federal role there and the right 
way to balance those incentives with the need to provide these 
important financial aid programs to students that you 
mentioned. There is some tension there, I guess is what I'm 
saying.
    Mr. Krishnamoorthi. There is a tension, but I do not want 
to burn up increased aid on increased tuition costs. That is my 
biggest concern, which is I am all in favor of increasing Pell 
grants, because I do believe they serve a very important role 
in allowing needy students to access higher education, but, at 
the same time, I am just concerned about the galloping costs of 
higher education.
    People in my district are really unable to save and afford 
college for their kids because it is just getting so far out of 
reach. I am trying to figure out what carrots and sticks the 
Federal Government can offer to make sure that costs of college 
do not rise at the same time we are increasing Federal aid.
    Ms. Conklin, I want to follow up what I just said with this 
statistic. In 2015, researchers from the Federal Bank of New 
York and Brigham Young University released a paper suggesting 
that schools raised tuition by 55 cents for each $1 increase in 
Pell grants that undergraduates received, and by 60 to 70 cents 
for each extra $1 of subsidized student loans. That is very 
concerning to me.
    Again, I want to enhance financial aid, and I want to make 
sure that our students have the tools to access postsecondary 
education, but I do not want it to be burned up in just 
increasing tuition costs.
    Can you comment on this, please?
    Ms. Conklin. Thank you for the question and for your 
interest and the representation of Americans concerned about 
affordability. It's the top two, three concerns among 
Americans.
    What you have is the same concern that State policymakers 
have, and what State policymakers have, many of them have 
tuition-setting authority. So, we see in those States with 
tuition-setting authority, when they put caps or bans that look 
like increases in family income, we see a lower rate of tuition 
increases.
    That's not something that the Federal Government can do. At 
the Federal Government level, again, we're talking about 
getting rid of the Grad PLUS Loan Program with no loan limits 
at all, and what that does to pricing sensitivity in the 
market. We're talking about sensible loan limit lengths, about 
150 percent of the time, that puts some limits, but then we 
also talk about what's the relationship.
    We did see in States that with the increase in the Pell 
grant program, the rapid increase in the Pell grant program 
between 2008 and 2013, that a number of States increased 
community college tuition.
    Like in Alabama, where you had about a $27 a year increase 
between 2004 and 2008 to their community college tuition. Come 
2008, when we started to put more money into Pell, community 
college tuition was going up $280 a year.
    A lot of that is related to what the State was doing, and 
the States face Medicaid pressures and other funding 
priorities, but all-in-all what you see is this spiraling 
tuition that if you saw the CNBC report this weekend, they said 
if you were born today, 18 years later, it could cost half a 
million dollars to go to college.
    So, there's a collective shared responsibility between the 
Federal Government, States, and institutions to really not just 
keep tuition at the rate of family income, but actually try to 
find ways to cut tuition and cut time.
    Mr. Mitchell. [Presiding] Thank you. The member's time has 
expired.
    Mr. Krishnamoorthi. Thank you.
    Mr. Mitchell. They have thrown a substitute in here.
    Mr. Krishnamoorthi. You suddenly look different.
    Mr. Mitchell. I know. Second verse, same as the first. 
Believe it or not, I recognize myself for 5 minutes as well.
    Dr. Chingos, let me talk to you a little bit about exactly 
your concern, which is the information crisis. I believe the 
information crisis goes deeper than just whether students know 
they have a loan or not. I think and I agree--Mr. 
Krishnamoorthi, I am going to agree with you. We do have a 
crisis on our hands, one of information needed by students to 
make a wise decision, students and families, on return of 
investment.
    Far too frequently, students going to college--like the 
tradition here, I was the first in my family to even see a 
college, my extended family, never mind graduating from 
college.
    You have to guess whether or not you are likely to succeed. 
You have to guess at whether or not you are lucky to get a job. 
You cannot get that information from most colleges or 
universities. That information is not there. That lack of 
information does not allow the consumer to make valid choices.
    Dr. Chingos, how do we get to a point where consumers are 
aware what the likely cost of attending college will be, and 
their likelihood of success? How do we get that information so 
they know that when they decide to become an architect at the 
University of Michigan, for example?
    Mr. Chingos. Thank you, Congressman. It's a really 
important point that this information crisis extends well 
beyond that one statistic I mentioned. So, on the front end, 
because the aid process is so confusing and hard to navigate, 
people don't know how much aid they're getting from the Federal 
Government until they apply to college, fill out a FAFSA, and 
get aid offers.
    So, I think simplification--not simplifying the FAFSA, get 
rid of it entirely. Base these people's aid awards on the 
average family income when they were growing up, say from age 
10 to 16, put that money in an account and tell them at age 16, 
no forms, no prior-prior year, here's how much you are eligible 
for. So, I think we can fix it on that side.
    But you're right, we also need better information on the 
other end. How much can I expect to make, and will I be able to 
pay my loans if I go to a particular college or program of 
study?
    I think the Obama administration made important advances 
there with the College Scorecard, providing information at the 
institution level. I think we can go a step further, as many 
States have, provide that information at the level of program 
of study with data that already exist and can easily be 
approached.
    Mr. Mitchell. Let me suggest, I spent 35 years, my entire 
professional career, in workforce development and postsecondary 
education. We reported every year completion rates by program, 
by location, the employment by program, by location, the wage 
they made by program, by location, for 19 campuses.
    You cannot find that information out in most public 
universities and colleges for a program. You can get aggregate 
information.
    So, I guess, Mrs. Copeland-Morgan, how do we get 
universities to understand that information is critically 
needed by consumers to make wise decisions so they can be in 
control, frankly, rather than administrators and the Federal 
bureaucracy being in control?
    Mrs. Copeland-Morgan. Thank you for your question. Many 
universities do surveys. The response rates are not necessarily 
where they need to be, but I think that we can certainly 
incentivize institutions to get that information. It is in our 
best interest to make sure that students understand what the 
labor market will be for them once they are pursuing those 
majors.
    I would go back to the front end in terms of 
simplification. We often think of that as being a form, but I 
agree, and some of the work by Susan Dynarski shows us that 
early notification of eligibility for financial aid is key, not 
only to access, but in terms of the retention of those 
students.
    There is a lot of research that shows us intergenerational 
transfer of poverty, so the idea of doing a needs test via the 
FAFSA or other methods each year also complicates the process.
    So, I certainly have found in almost 40 years of being an 
aid administrator that for my low-income students, they don't 
suddenly get rich the next year, so another area of 
simplification is not just the front end, but in terms of 
helping those students to stay in our institutions and 
graduate, incentivizing institutions--
    Mr. Mitchell. Let's talk about graduation rates for a 
moment. I think the data that Dr. Chingos put forward, and I am 
running out of time here, is critically important. The average 
completion rate for a community college is 39 percent. Now, as 
I said, I led a group of private career schools, and the 
accreditation standard was 70 percent or you no longer were 
able to be a viable institution.
    How is it when you talk to students when they go to 
community college about the likelihood of succeeding, they do 
not have that information along with how much they borrowed? 
That lack of information, I think, we are all responsible for 
making sure it is communicated effectively to students, what 
the likelihood of success is and how we help them to succeed, 
but they need to know to make that investment.
    They are borrowing money right now at a guess they can 
succeed and move their career forward on a hope and a prayer 
because they do not have information, and we are all 
responsible in this room for making sure we have better 
information, and that puts them in control rather than 
institutions, rather than bureaucrats.
    My objective on this committee, in fact, is to focus on 
that. My time is up, and I will recognize the next member. 
Thank you. Mr. Polis, you are recognized for 5 minutes.
    Mr. Polis. Thank you. I want to begin by thanking our chair 
and ranking member for holding the hearing. Frankly, the timing 
of the hearing is excellent.
    It was only last week when President Trump and Secretary 
DeVos put an end to a prohibition on certain fees on student 
loans. After being in office only a few weeks, President Trump 
and Secretary DeVos have actually increased the cost to student 
loan borrowers.
    So, clearly, any progress on this area will have to be made 
by Congress, which is why I am excited that we are having 
today's hearing. I also want to point out that of course we all 
agree there are ways to make financial aid simpler for students 
and families. I think we can do that together.
    I was encouraged to hear Chairman Guthrie say that 
simplifying financial aid does not mean cutting it, because, 
unfortunately, the one grant, one loan proposals we have seen 
also happen to reduce the overall Federal investment in 
financial aid.
    So, again, those two are not mutually exclusive, but so far 
the proposals we have seen, like the President's proposal to 
eliminate the Supplemental Educational Opportunity Grants, do 
not suggest that money is reinvested in actually helping to 
make college affordable.
    The truth is that I hear across my district, as so many 
other representatives do, that students and families have 
already a hard enough time paying for college. Cutting the 
amount of financial aid is not going to make it easier to 
attend college.
    My first question is for Youlonda Copeland-Morgan about 
income-driven repayment plans, which I feel are essential for 
borrowers who are not able to afford monthly payments under a 
standard repayment plan.
    Right now, there is an excessive amount of income-driven 
repayment plan options that often leaves borrowers confused or 
not enrolled about what might be best with their own budgets.
    How can we simplify repayment plans while ensuring 
borrowers have generous terms, and can you talk about the 
different protections provided by income driven repayment 
plans?
    Mrs. Copeland-Morgan. Thank you for the question, 
Congressman. I would really encourage the committee to think 
about income repayment plans being the base, the default 
repayment plan for students. As you've heard, many of the 
students who are in default have very small amounts of loans. 
The requirement that students have to verify their income every 
year is burdensome. Students forget about it.
    Again, when you look at the intergenerational transfer of 
poverty or for many of our students who go into service areas 
working as teachers and other professions of service, I think 
we could use the IRS data and other kinds of data that's i 
accessible to the Federal Government to prevent some of those 
defaults.
    Mr. Polis. It sounds like what you are recommending is 
either universality of income-based repayment or an opt-out of 
income-based repayment. Ms. Soucier, do you agree with that 
statement?
    Ms. Soucier. Absolutely.
    Mr. Polis. I also want to ask about flexibility for Pell 
dollars. In my district, we have Colorado State University in 
Fort Collins. We have seen the number of Pell-eligible students 
enrolling in summer programs double when they were able to use 
Pell dollars over a summer term.
    Unfortunately, that flexibility no longer exists, and 
students who depend on Pell dollars only use them in the fall 
and spring semesters, therefore, increasing the time it takes 
for them to reach graduation.
    Almost every time I meet with students in my district at 
universities like CSU and CU and community colleges, like 
Colorado Mountain College or Front Range, one of the first 
things I hear is restore year-round Pell.
    I know many of us are optimistic that we can use some of 
the additional dollars in the Pell reserve towards improvements 
in the Pell program like year-round Pell, and I was hoping, Ms. 
Copeland-Morgan, you could speak to the benefits of year-round 
Pell.
    Mrs. Copeland-Morgan. Thank you again. I think year-round 
Pell is one of the most positive things we have done in the 
financial aid program. It allows students to accelerate their 
time to degree. Oftentimes, students are staying in an 
additional full year when they could graduate in the summer by 
taking one or two courses that they need. I was one of those 
students who took the fourth year of financial aid when I only 
needed six units.
    I would really encourage the committee to look at the 
maximum Pell award, increase the maximum so that it does allow 
a student to take full advantage of the opportunity to go for 
summer, and I think that would be a good use of the surplus 
that we see in the Pell program at this time.
    Mr. Polis. Last Congress, I joined a number of colleagues 
introducing legislation allowing students to use prior-prior 
year tax data when completing a FAFSA. The Obama administration 
made that change, but we are now in a period of time where the 
Trump administration seems to be undoing a lot of things that 
the Obama administration did.
    So, I think we should have more concern than ever to simply 
put that change in statute rather than leave it up to the whim 
of the administration.
    Just as an example, in Colorado, FAFSA completion rates 
increased substantially this fall after students were able to 
fill out the FAFSA earlier.
    I just want to end, since my time is up, by encouraging 
this committee to put that large noncontroversial step in 
statute to prevent it from being at the whim of the Secretary 
or President. It is a commonsense measure that makes it easier 
to fill out that form and apply for student aid, and to find 
out what you are getting, and I am happy to yield back.
    Chairman Guthrie. [Presiding] Thank you. I appreciate the 
gentleman yielding. I now recognize Mr. Lewis for 5 minutes for 
questions.
    Mr. Lewis. Thank you very much. As a parent who annually 
fills out the FAFSA forms, I can tell you this is a much-needed 
hearing, and I appreciate everybody attending today.
    Let me start at 30,000 feet here with Mr. Chingos for a 
moment. One of the oldest rules in economics or the insurance 
industry or anything in regard to finances is the third-party 
payment rule or the moral hazard. When we see third parties 
come in--frankly, we are debating this in health care right 
now, but it could be any particular commodity, it is certainly 
true in higher education, when we see third parties come in and 
assume the costs, what we see in many cases are inflated costs.
    So, if tomorrow, all of a sudden, somebody said, gosh, for 
every cup of Starbucks you buy, the Federal Government is going 
to issue you a Starbucks grant, and it is going to cover $3 of 
the cost of a pound of coffee or whatever. I will take the bet 
that the pound of coffee price is going to go up, and it is 
going to go up because the providers know there is a subsidy.
    We have seen a massive increase in tuition at 4-year 
liberal arts schools and for-profit schools; across the board, 
we have seen an increase. The big picture for me is how do we 
provide the need that is there without inducing this moral 
hazard?
    The cost of attending a 4-year public institution has 
increased by more than 40 percent in just a decade. The only 
thing rising faster than tuition are textbooks. So, we have a 
situation here where everybody is talking about, oh, gosh, we 
have to make it easier for folks to borrow, we have to decrease 
the cost of borrowing, let's make more student loans, more Pell 
grants. Pell grants alone have skyrocketed. I do not have the 
figure right in front of me here, but to, what, $30 billion?
    We are inducing the moral hazard here, so how do we provide 
a program, Mr. Chingos, that (a) provides what we want for 
access, but (b) does not induce this moral hazard?
    Mr. Chingos. Thank you, Congressman. I think you accomplish 
that goal by having programs that are targeted and narrowly 
tailored to particular Federal interests, such as helping low-
income students go to college.
    To go back to your Starbucks example, if only 1 in 10 
customers got that Starbucks grant, it is going to be harder 
for Starbucks to raise the price, because 9 out of 10 customers 
coming in the door, they don't know they have that grant. If we 
give everyone enough of a grant to get up to the most expensive 
cup of coffee you can get, then you have to be more concerned 
about that.
    I think by being targeted, by focusing on students who have 
been historically underserved, you accomplish both the goals of 
helping them and of limiting the moral hazard problem that you 
highlighted.
    Mr. Lewis. Has the tripling of the Pell grants from $13 
billion in 2006 to $36 billion in 2010 added to that?
    Mr. Chingos. I mean, I think we ought to be most concerned 
about Pell grants at the places that enroll large numbers of 
Pell grant students. At an institution that has a relatively 
small number of Pell eligible students, it's going to be harder 
for them to raise prices, to extract that money, whereas at 
institutions that rely almost entirely on aid, I think we have 
to be more concerned and think about the right way to balance 
access to those institutions with whether it's the best use of 
Federal resources.
    Mr. Lewis. Ms. Conklin, a question for you on 
simplification, I think we moved up the FAFSA time periods now, 
so you can fill them out earlier, so I get to do that and my 
taxes right away, so the first of the year gets off to a 
rousing start in the Lewis household.
    Again, from a more global perspective or 30,000 feet, we 
have a program in Minnesota that offers aid in higher ed that 
you do on your tax return. In a perfect world, talking about 
simplifying, talking about a three tier, if we are going to do 
tax reform in fiscal year 2018, we hope, is there a way to just 
to really simplify this down to a 1040?
    Ms. Conklin. There certainly is. What we have recommended 
in our Technical Panel, and it actually mimics what the College 
Board offered 10 years earlier, it is what Susan Dynarski has 
analyzed. Poor is poor, and assets aren't really a factor for 
low-income students; we only ask for that because we subsidize 
loans. If we didn't subsidize loans, we wouldn't need all that 
income and all the asset data.
    So, what we should do is ask for the data we already give 
to the Federal Government. There is a Gates paper, if you want 
to keep your subsidized loan program and you want to keep that 
information, you still just stick to what is already provided 
in the IRS tax forms, with a schedule and basic adjusted gross 
income.
    Other than that, we are over asking the same questions, and 
we are asking students to be financial managers, and that's not 
reasonable.
    Mr. Lewis. Conceivably, you could do it?
    Ms. Conklin. Absolutely. We have recommended if you have 
already qualified for a Federal means tested program across the 
Federal Government, why do you go through this process again to 
certify you're poor? You might already be kind of put to the 
front of the line as an eligible student.
    Mr. Lewis. I thank the panel, and I yield back.
    Chairman Guthrie. Thank you for yielding. I now recognize 
Mr. Sablan for 5 minutes for questions.
    Mr. Sablan. Thank you very much, Mr. Chairman and Ranking 
Member Davis, for having today's hearing. Welcome, everyone. As 
an original cosponsor of SAFRA, I also find this hearing today 
very timely.
    In my district in the Northern Mariana Islands, we only 
have a small community college with a little more than 1,000 
enrolled students. A large majority of the students come from 
low-income families.
    Dr. Chingos, sir, over 90 percent receive Pell grants, so 
making it possible to pursue their higher education 
aspirations. And the minimum wage, sir, is $6.55 an hour, and 
you cannot get in a car and drive across a county line to go to 
college elsewhere. It is going to be very expensive.
    So, the President recently released budget would cut $3.9 
billion of the funding currently reserved for the Pell grant 
program, and leaves the program on an unstable footing for 
future generations. On top of that, the majority of this 
committee have also separately proposed to eliminate funding. 
As stated in the budget, the estimate for fiscal year 2018, the 
proposal will eliminate all of Pell's mandatory funding.
    I strongly believe the continued success of people in my 
district and the Northern Marianas, and in our country, lies 
with the ability to train our citizens through higher education 
to be productive members of our society, and this money that 
the President and the majority are trying to take away from 
needy college students is necessary to ensure Congress can 
continuously modernizes and strengthen the program to better 
support students.
    Instead of cutting or reducing student financial aid, we 
should be investing in this program.
    Mrs. Copeland-Morgan, how can the Pell grant program be 
strengthened and not weakened?
    Mrs. Copeland-Morgan. Thank you, Congressman. The program 
could be strengthened by increasing the maximum award. The Pell 
grant is only paying about 19 percent, the average award is 
only paying about 19 percent of costs for students.
    It can be strengthened by continuing to target the funds to 
the most neediest students.
    I will add that a lot of committee members have been 
concerned about institutional behavior. Incentivizing 
institutions who are enrolling and graduating Pell grant 
students will help to change some of that behavior. I encourage 
you to look at that.
    Year-round Pell is key to acceleration. It is costly for 
students to hang around our institutions for an additional year 
when if they had a Pell to take those extra three to nine 
units, they could be out in 4.1 years rather than 5 years. I 
think you are hearing a theme here across all of the witnesses 
today that year-round Pell along with prior-prior year have 
been good movements toward simplification.
    Mr. Sablan. I have one more question, Mrs. Copeland-Morgan, 
if I may. I have recently heard from some of my colleagues on 
the majority that Congress should create programs to target 
middle-income students and not low-income students because low-
income students are already taken care of by grant aid.
    Is this what you see in your institution, your University 
of California, and around the Nation?
    Mrs. Copeland-Morgan. That has not been the case in the 40 
years that I've been in higher education. Sixty-one percent of 
Pell grant recipients borrow to complete their degree compared 
to about a little less than a quarter of non-Pell recipients.
    So, the Federal investments in campus-based programs, for 
example, subsidized loan programs, are very key for completion 
of these students, and I might add that at the University of 
California, again, we see 4-year graduation rates are amongst 
the highest in the country, 76 percent, and 6-year graduation 
is 92 to 93 percent; system-wide, 86 percent. The 92 to 93 is 
at UCLA.
    Yet, we are 40 percent first-generation college students, 
and most of our campuses are anywhere from 35 to 45 percent 
Pell eligible students.
    Mr. Sablan. Thank you. Actually, I am very happy because my 
daughter graduated 2 years ago, my son is getting out in May. 
Thank God, because people back home say if you are a child of 
someone in Congress, then Congress pays for your child's 
education. I do not know where they hear that. I really think 
it is Fox News, because that is the only news we have, 
unfortunately. It is true. It is fake news, right?
    Chairman Guthrie. Thank you. The gentleman's time has 
expired.
    Mr. Sablan. Thank you, Mr. Chairman. I yield back.
    Chairman Guthrie. I now recognize Mr. Messer for 5 minutes 
for questions.
    Mr. Messer. Thank you, Mr. Chairman. Thank you to the 
panel. Obviously, a very important issue today as we work 
through what we can do to improve Federal student aid. We have 
talked a lot about student borrowing.
    Many on the panel are probably well aware, but according to 
a recent Brookings Institute study, too many students just do 
not know how much they are borrowing. I think it is part of 
what contributes to the high dollars that students do borrow.
    According to the study, roughly 28 percent of students with 
Federal loans said they had no Federal loans at all, and 14 
percent said they had no debt at all, even though they had 
student loans.
    Based on these statistics alone, it is clear that somewhere 
along the way we failed to communicate to students how they are 
financing their education and what that means for their future.
    The Higher Education Opportunity Act of 2008 required the 
Federal Reserve to reform the private student loan disclosure 
form and use consumer testing to improve it. As a result, today 
we have a private student loan disclosure that gets down to 
brass tacks. It clearly and boldly discloses things like total 
loan amount, the interest rate, total payments made over the 
life of the loan, and other disclosures that are essential for 
a student to know before they take out a loan.
    Contrast that, on the other hand, with the Federal Master 
Promissory Note, the MPN, I think it is technically called, 
which is used as the primary contract for all Federal student 
loans. It is an 11-page fine-print document that is 
incomprehensible unless you happen to specialize in higher ed 
finance.
    Ms. Soucier, I was going to ask you, do you think consumer 
testing of the Federal Master Promissory Note paperwork and 
other disclosures like it would make those forms more useful to 
students?
    Ms. Soucier. Absolutely. I think we need not just more 
information out to the students, but we need it more often. 
Students are required to get entrance loan counseling at the 
start of getting their loan. They are getting that loan at 17, 
18 years old, when they don't understand, they've never 
received any debt, they don't understand what they're reading.
    So, what we need to do is we need to give it to them more 
often, and we need to be able to require it before they receive 
funding. For us, it would be every semester. Some schools, they 
may only need it every year. I think we need the flexibility 
based on student population to require them to come in and get 
additional information, both in writing, in person, online, by 
video, however we can get the information to them so they can 
understand what it is they are getting.
    Mr. Messer. I will give you a practical answer from Indiana 
University in my home State. They put together essentially a 
letter of notice to students, that every year in the fall, it 
went to each student at IU and disclosed what track they were 
on as far as student borrowing, and what the cost of their 
education would be if they continued on the same track.
    They saw that student borrowing went down as much as a 
quarter to a third just by simply every year sending a clear, 
readable letter that notified those students of what their debt 
path was.
    We are working on legislation that would make that 
national. It has already been a law in Indiana that now applies 
to every university, not just Indiana University, and we are 
hoping we can take that national.
    My next question in the limited time I have left is for Ms. 
Conklin. You mentioned in your testimony that you think 
aggregate Federal student loan limits should be reduced and 
simplified. You went on to imply that any void in lending 
created as a byproduct of that could be filled by private 
financing like income share agreements, if the appropriate 
incentives are created to serve low asset individuals. There is 
a Purdue program that has been sort of cutting edge nationally.
    Could you explain some of the types of incentives that 
could encourage income share providers to serve low asset 
borrowers like Pell grant students?
    Ms. Conklin. Thank you, Mr. Messer, for your question. One 
point of clarification. The proposal of the Technical Panel 
actually called for an increase in loan limits for 
undergraduates and graduates, just one set per. That is an 
example of some of the savings in our simplification, that we 
reinvested for students' benefit.
    On the issue of income share agreements, it is a promising 
new private financing vehicle whereby an investor can identify 
students who are able to repay their loans based on a share, 
like 5 percent of their income, and if they're not able to make 
that income, they don't make those payments. So, it's a pure 
income-based payment program.
    But it's going to create incentives with colleges to be 
able to make sure they are focused on the returns and those 
labor market returns, which we heard was important to the 
committee earlier. It's going to cause students to need that 
information that we've been talking about that is so important, 
about choosing programs carefully, about borrowing carefully, 
and about using your time well.
    So, it's going to bring, I think, more transparency. It's 
not in lieu of the loan programs we have, but particularly at 
the graduate level, I think, there is just real promise.
    Mr. Messer. Thank you. Income share agreements are not the 
answer for everybody, but I think they are the answer for more 
people than are currently being served by them now. Hopefully, 
we can make some headway on that issue in the coming weeks and 
months.
    I yield back to the chairman. Thank you.
    Chairman Guthrie. The gentleman yields back. I now 
recognize Mr. Takano for 5 minutes for questions.
    Mr. Takano. Thank you, Mr. Chairman. Before I begin, I 
would like to say a few words on this idea that we cannot 
increase financial aid because some people think that is what 
causes tuition increased, the so-called ``Bennett hypothesis.''
    First, the best studies on this find that it is not the 
case at public and nonprofit colleges. However, we do have 
quality evidence showing this does occur at for-profit schools, 
which strongly suggests that we need better oversight of this 
sector.
    More importantly, we need to take a step back and reject 
the cynicism that this idea implies. By all means, let's look 
for ways to make tuition more affordable, but let's not throw 
up our hands and say we should not increase aid because of, I 
think, the misleading indications of this theory, the Bennett 
theory.
    Mrs. Copeland-Morgan, many of my colleagues on the other 
side of the aisle believe that financial aid, including Pell 
and Federal loans, have driven the increase in tuition. In all 
your decades of experience working at various institutions, has 
this ever been the case?
    Mrs. Copeland-Morgan. Thank you, Congressman. It has not 
been in my experience. I know there is a small amount of 
research that shows there may be a correlation between 
increases in aid in the for-profit sector, and I think simple 
oversight, greater oversight of that area, where those schools 
are not graduating Pell recipients and low-income.
    But I think you find partners in 4-year higher education 
institutions, and I would encourage, therefore, greater 
investment, particularly again for those who are serving 
disproportionate numbers of low-income and Pell grant 
recipients. That, I would say, also includes the campus-based 
programs, and we have not talked much about Perkins loan today, 
which you know will come to an end this September.
    The Federal Government has not invested in Perkins loans 
for over a decade, and I would really encourage the committee 
to consider legislation that would allow institutions to 
continue to award under the Perkins Loan Program, which is a 
better option than private loans for these low-income working 
families.
    Mr. Takano. Thank you. Does institution leadership make 
decisions based on these increases in aid?
    Mrs. Copeland-Morgan. Again, I think that bit of research 
is a distraction from the bigger issue of investing in our 
young people so they can achieve their career goals. I've not 
sat around the table, that's not been my experience.
    I think as some of your members have mentioned, 
overwhelmingly, and you two in your opening comments, 
overwhelmingly, public institutions and many private 
institutions, the not-for-profit private institutions, are also 
investing their own dollars in financial aid programs.
    The UC system, for example, a third of our tuition revenue 
goes right back into grant programs for low-income students. 
So, that's not been my experience.
    Mr. Takano. What in your estimation does drive the cost of 
tuition, in a nutshell?
    Mrs. Copeland-Morgan. Well, if there is insufficient aid 
for students, certainly again, at the University of California 
system, we put a third of our financial aid back into financial 
aid programs.
    I think the cost of technology, quite frankly, today, as 
someone who has gone through no technology to the technology we 
see today, is a big driver. I think the students are interested 
in multiple disciplines, and certain interdisciplinary 
education is more costly. I think institutions are trying to 
find ways to deliver a quality education in a more cost-
effective way.
    I know I spend probably 30 percent of my time in those 
kinds of conversations. That might be one area that the 
committee can spend more time talking about, how do you help 
institutions in that area to keep costs affordable so we can 
serve more students and graduate our students earlier?
    Mr. Takano. Mr. Chingos, you mentioned in your earlier 
testimony institutions that primarily rely on financial aid. 
Are you referring to the for-profit college industry as one of 
those categories of institutions?
    Mr. Chingos. Sure. A lot of them.
    Mr. Takano. Increased Federal aid does seem to be linked to 
increases in costs at those institutions. Is that what you are 
referring to?
    Mr. Chingos. There is some evidence to indicate that's the 
case, as several folks have mentioned today.
    Mr. Takano. Ms. Conklin, can you comment on your own Pell 
grants as far as how they might help students before their 
freshman year in college and after their senior year? Do we 
know much about these summer bridge programs to increase 
preparedness, you know, to be ready for college, with English 
or math?
    Chairman Guthrie. The gentleman's time has expired.
    Mr. Takano. My time has expired.
    Chairman Guthrie. Hopefully, within some questions, you 
will be able to get an answer. That is a good question, but, 
unfortunately, your time has expired.
    I now recognize Mr. Smucker for 5 minutes for questions.
    Mr. Smucker. Thank you, Mr. Chairman. I appreciate the 
opportunity to be part of this hearing. I am a father of two 
girls who are in college, so I went through this process. I 
must admit, I was chair of the Education Committee in the 
Pennsylvania State Senate and served as one of the directors on 
PHEAA, the Pennsylvania Higher Education Assistance Agency, and 
I still found it confusing.
    I think it is overdue to simplify and create a more 
efficient system. I look forward to being part of that 
discussion.
    Mr. Messer asked questions in regards to student knowledge 
about the loans they have taken out, the provisions of those 
loans, and so on. I would like to take that a step further.
    I think one of the things we do not do very well in our 
system of higher education is provide information to students 
about the earnings potential for a specific major, maybe 
earnings potential for a specific major at a specific school.
    At the end of the day, you are taking out the student loan 
with the hopes of being able to pay that back. It is an 
investment. I do not think from what I see we do a very good 
job of educating students about their ability to repay.
    Maybe I will start with you, Mr. Chingos. I would like to 
get your impression on that, and I would like to ask what your 
impression is of how we do on that, and whether if we are 
talking about reconfiguring our Federal student aid system 
there would be a way to tie in additional information in 
regards to the ability to pay back based on the major a student 
is choosing?
    Mr. Chingos. Thank you for the question. I think it is 
critically important that students have better access to 
information and what they can expect down the road when they're 
deciding where to go to college, how much to pay, how much to 
borrow.
    I think some progress has been made. A couple of years ago, 
we didn't know for the whole country average earnings for each 
college, and now we have that through the College Scorecard. We 
do need to go one step further and get that information down to 
the program level, which some States have done, but we don't 
have it at the national level yet.
    Then we can think about as we are thinking about counseling 
around borrowing and repayment finding ways to get that 
information to students.
    Some research we are doing at the Urban Institute suggests 
that you can't just build it and they will come. You can't just 
put the information out there. You have to think about how to 
make it intelligible to students, how do they know what a 
$45,000 starting salary means for what they can expect to 
borrow. There is progress to be made.
    Mr. Smucker. Do students currently get any of that 
information as a part of the application for assistance?
    Mr. Chingos. Not that I'm aware of.
    Mr. Smucker. Would there be a way to link those in some 
way?
    Mr. Chingos. I think through disclosures. One of my 
colleagues might be able to better address this, doing the work 
on the ground, but I imagine there would be.
    Mr. Smucker. Anybody else care to address that?
    Mrs. Copeland-Morgan. I would just mention that in our 
career centers, we do provide this information. We do survey 
our graduates after they graduate, 5 and 10 years out, and I 
think that is probably an area that we can do more in. I agree, 
certainly technology allows us to provide more links for 
students in that regard.
    Ms. Conklin. Mr. Smucker, Ms. Soucier works in a State, 
Texas, that is one of the States that is innovative in linking 
their labor market data with their postsecondary student data.
    So, at the State level, they have demonstrated the 
leadership to create these metrics. The State makes them 
publicly available to students, and then community 
organizations, high school counselors, can provide that 
information to students in a variety of ways, but the State has 
taken on the role to make that transparent. That's an example 
of progress, I believe.
    Mr. Smucker. Thank you. I am just going to shift gears. I 
have a minute. Ms. Soucier, your written testimony specifically 
mentioned the gainful employment regulation and how it can 
ultimately harm today's students.
    In about 55 seconds, could you expand on that briefly?
    Ms. Soucier. I'd be happy to, thank you. My biggest 
concern--we spend a lot of time trying to comply and report the 
information being required. We've spent hours and hours with 
our technology groups doing that.
    What my biggest concern is--our Workforce Office does a 
great job working with business and industry around Houston to 
create programs to get students trained into certain jobs, and 
my concern is if the data isn't fully accurate or doesn't fully 
represent the program, that it could make programs in jeopardy 
of being disbanded after they put so much effort in creating 
the program.
    Mr. Smucker. I would be interested in continuing that 
discussion with you at a later time. Thank you. Thank you, Mr. 
Chairman.
    Chairman Guthrie. The gentleman yields back, and I 
recognize Ms. Blunt Rochester for 5 minutes for questions.
    Ms. Blunt Rochester. Thank you, Mr. Chairman and Ranking 
Member. I really want to thank this panel. This hearing was 
really interesting and exciting, even if you do not think it is 
exciting. It is exciting to me.
    I come from the State of Delaware, so I represent the 
entire State. The issue of college affordability was talked 
about up and down the State, particularly as we talk about 
strengthening our economy. It's connected to everything.
    I particularly liked the five crises, Dr. Chingos. That was 
pretty interesting to me, when I think a potential crisis is a 
cut to these programs. That's another potential crisis.
    My question is directed to Mrs. Copeland-Morgan. It is 
basically a recent report by the National Center for Education 
Statistics found that one in five undergraduate students 
surveyed in their study did not seek out any form of financial 
aid.
    When students were asked why, the majority of them cited 
misinformation. Forty-four percent thought they were ineligible 
for aid, and another 43 percent thought they could afford 
college without the help. This tells me that there is a lack of 
information on the part of students and families on how 
financial aid works and the true cost of going to college.
    How can Congress ensure more students are receiving the 
needed information to make informed choices post high school?
    Mrs. Copeland-Morgan. Thank you for your question. I think 
early outreach is key. Investment in programs like TRIO and 
GEAR UP, the funding of Perkins loan, which we use those 
dollars also to administer loan programs, Federal work study, 
we deploy students into communities to help get that word out 
about financial aid.
    I mention those to say that the Federal aid programs, 
particularly like work study, allow us to get that message out 
to those communities most in need.
    I think simplification of the FAFSA, and when we simplify 
it, put that information out there early. I call it ``baby 
college,'' that students would know from the time of birth they 
are eligible, particularly the low-income students, again, 
where they have been through need-tested programs or we use IRS 
data to understand what their income is.
    So, it is a concern. I think probably many of you as first-
generation probably experienced this as well, but the 
investment in outreach programs are key, and right now, many of 
those programs are subject to cuts as well.
    Ms. Blunt Rochester. I follow up on that to say I, like 
many of my colleagues up here, have two children that went 
through the whole process with FAFSA. I have seen the changes, 
promissory notes, all of that, and myself participated in work 
study programs. It is complicated for almost everyone. To see 
the bipartisan conversation is a positive.
    My second question is for you as well. As our country fully 
shifts from an industrial economy to a knowledge-based economy, 
higher education has increasingly become the surest way out of 
poverty. You talked a lot already about the goal of coming out 
of poverty.
    Now, more and more jobs are looking for workers that 
graduate with master's degrees and doctorate degrees, 
respectively. Twenty-two percent and a 20 percent increase in 
the number of those.
    We are hearing about proposals that would limit graduate 
students from accessing Federal dollars. What can the Federal 
Government do to continue to provide access to capital for 
individuals wanting to pursue graduate degrees?
    I actually served as Secretary of Labor in my State, so I 
understand the correlation between education and jobs, and 
also, I was pleased to hear the conversation about labor market 
information as well and connecting that to what we are doing at 
the university level.
    Can you talk a little bit about that? Anyone on the panel. 
We have 53 seconds.
    Mrs. Copeland-Morgan. I would just say, historically, grant 
programs have been targeted to undergraduates and less 
investment has been made at the Federal level through the 
Federal loan programs for graduates. And if we're going to meet 
the technological advances and the ingenuity that's needed for 
our society today, we have to provide a financial investment 
way, a pathway, for students to continue their education so 
they can get those graduate degrees and become productive, 
contributing members of our labor market in that regard.
    Ms. Blunt Rochester. Other members?
    Ms. Conklin. I think I want to echo what the chairman said 
earlier about simplification does not equate with cutting in 
the perspective that I have, and that this Technical Panel I 
represent here today has.
    We recommend again one set of annual and aggregate loan 
limits for graduate students, and they increase. So, you could 
borrow $90,000 through the Federal program to support your 
graduate education and training. That would be added to your 
undergraduate loans, for a maximum of $125,000. That would be 
the new umbrella that we're offering.
    Ms. Blunt Rochester. Thank you. I yield back.
    Chairman Guthrie. Thank you for yielding back. I recognize 
Mr. Grothman for 5 minutes to ask questions.
    Mr. Grothman. Sure. We mentioned the Pell grants a little 
bit before, and maybe I will direct this to Ms. Conklin, but 
anyone else can jump in if they want.
    I think the Pell grant program and other programs have been 
subject to criticism even when I was in college by the middle 
class. People get tired of the American government hating the 
middle class, and they have to kick in for their kids' 
programs, so their kids have to take out loans. Well, maybe 
kids from some other families seem to get things for free.
    Do you think one way to deal with this problem would be to 
say no Pell grants in your freshman year? At least for the 
freshman year have the kids who are not in the middle class 
take out loans like the kids in the middle class already have 
to, and that way you could make sure that everybody who is 
going to college, after they at least get through the first 
year, are more serious about college. Do you think that would 
be a fair thing to do?
    Ms. Conklin. Congressman, I think what you're asking is if 
there is a Robin Hood effect in higher education, where middle 
class and upper middle class people are paying for poor people, 
and who aren't ready for college. Am I understanding your 
question?
    Mr. Grothman. Well, just the unfairness, the resentment. I 
know in many ways in this country we hate the middle class. We 
love the rich. We love the poor. We hate the middle class.
    Sometimes they use these Pell grants for goodies and 
electronics, and they resent the fact that by doing it right, 
their kids are penalized.
    Ms. Conklin. One thing that we struggle with is the Pell 
grant is a tangible voucher and it's a target. I grew up in 
California, went to a public college. Keeping tuition low in a 
State is the largest subsidy of middle-class students we have 
in the State of California. Keeping the University of 
California affordable and accessible is a very large middle 
class subsidy.
    So, the middle class in California as part of higher 
education is heavily invested in it. At the University of 
California at Berkeley, where I think one of our members is a 
graduate, the average family income is higher than Stanford, 
but tuition is heavily subsidized by public taxpayers.
    So, I think the middle-class angst is targeting a Pell 
grant program, which was shown to be pretty effective at 
getting students to enroll, when really the hidden subsidy to 
middle class is we keep our public tuition low.
    Mr. Grothman. I think that subsidy sometimes leads us to 
excess academic staff, but I suppose it also--you did not say 
benefits the students. Again, I am going to come back.
    Do you think it would be fair--if tuition is low for 
everybody, would it be fair? Right now we have an unknown 
number of people who are getting Pell grants who will not 
graduate, and I think to make sure that we are not wasting the 
money, it might not be a bad idea to have people at least in 
the first year take out loans rather than grants. That was kind 
of my question.
    We will move on to the next question. I received anecdotal 
evidence in my district of people not getting married because, 
of course, if you do not get married, it is easier to be in 
poverty and get Pell grants. Would you care to comment on that? 
Anybody can comment on that. I have heard it from several 
people. You are the experts.
    Ms. Soucier. I'd be happy to comment on that. People are 
making personal decisions based on financial aid eligibility. 
We know that. We know people who have gotten divorced because 
it would be more beneficial for those students to qualify for 
aid. Is that what you're asking?
    Mr. Grothman. Exactly. Is that not horrible, the way our 
government--like Karl Marx said, we just want to destroy the 
American family?
    Ms. Soucier. Again, it goes back to your comment about the 
middle income, who feel like they're not getting treated as 
well in terms of Federal funding. It goes back to that.
    If you have two middle-income families come together, they 
don't qualify for aid, but a single parent would in that same 
circumstance. So, they're making that decision based on 
qualifying for eligibility.
    Mr. Grothman. I will give you one more question, just to 
make sure we are on the same page here. As I tour my trade 
schools and see people want to become a carpenter's apprentice 
when they are 28, after they realized their college degree was 
a waste, or people go back and become welders when they are 33, 
college was a waste.
    We all agree that we have too many people going to college 
now. You all agree with that?
    Mrs. Conklin. What's the definition of ``college?'' As I 
use it, it's any education and training after high school. It's 
that air-conditioning certificate program. That's college to 
me.
    Mr. Grothman. Let me put it this way, do we have too many 
people going to 4-year college?
    Mrs. Conklin. We are under producing certificates in this 
country in sub-associate credentials.
    Mr. Grothman. In other words--
    Mrs. Conklin. We need to create really good pathways to 
those--
    Mr. Grothman. Could you just say it for me?
    Chairman Guthrie. Your time has expired. I would like to 
recognize Mr. DeSaulnier for 5 minutes for questioning.
    Mr. DeSaulnier. Thank you, Mr. Chairman. I want to thank 
you and the ranking member, a proud graduate of the University 
of California at Berkeley, Ms. Davis, for this hearing.
    I cannot think of many things that for the long-term health 
of this country is more important than figuring this out. 
Coming from the Bay Area, what I get from both researchers and 
people from the private sector, as opposed to the last 
interchanges, more people who have bachelor's degrees and 
graduate degrees in a knowledge-based economy that requires 
people who can move and think and contribute to innovation, 
certainly that we get in the San Francisco Bay Area.
    One of the challenges, it strikes me, as a father of two 
kids who, fortunately, are out of college and are done with 
their student debt, but still struggle with kind of making the 
income that was available in my generation, is this perfect 
storm of access for kids who really work hard, to all of your 
comments, particularly disadvantaged.
    I was at Berkeley last week, and I have heard this over and 
over again, and Mrs. Copeland-Morgan, because you are in a high 
cost area, and maybe Ms. Conklin, the cost of housing, the 
external costs.
    So, a lot of these kids, and it is CSUs in East Bay, they 
are putting more capital improvements in our community college 
that attract kids to go to school and stay, but the CSUs are 
not providing dormitories and housing. So, you get speculators 
in a high-cost area where the cost of housing is going up more 
and more.
    I have a bill that is getting some support from the other 
side that in the dangers of overstating this to make sure it is 
used right, but for kids who cannot afford the housing costs to 
be at Berkeley or UCLA, are you seeing that?
    At least anecdotally, I am getting that a lot from 
students, both at CSUs and UCs. They can afford the tuition, 
but if they had more flexibility through Pell grants and 
financial aid, they could get cheaper housing off campus if 
they had access to financial aid for that.
    Mrs. Copeland-Morgan. Certainly, the cost of living in some 
States is exorbitant, even for nonstudents. Our focus is on 
helping students to make wise financial decisions, and again, 
acceleration of their time to degree through programs like the 
year-round Pell grant program, through our Perkins loans, and 
other kinds of things.
    The institution is very involved with the community and 
trying to find housing. That is for all of our campuses, 
affordable housing for students. Students are willing to do 
what they need to do to get their education, so it's not 
unusual that a student will have four roommates so they can 
keep borrowing down and be close to the institution, or on our 
campuses, so they can manage the educational costs. I think 
students' primary goal is to be a student, to get their degrees 
and graduate.
    I think, again, we have been talking about ways of 
simplifying the process, which is key. I'd love to see a 4-year 
award letter for low-income students because their income 
doesn't change over those 4 years, and I'd love to see a 
continuation of funding like the ACA for the campus-based 
programs, so that we can continue to put more counselors on the 
ground to address the kinds of concerns you've raised here 
today.
    Mr. DeSaulnier. I have read articles about this with CUNY 
as well. Obviously, New York, it is a high-cost area. Ms. 
Conklin--it strikes me, part of it, that if you were going to 
give more flexibility for housing, the oversight to make sure 
that it is done efficiently and effectively and not abused 
would be a challenge.
    Ms. Conklin. I'm not prepared to comment on those oversight 
issues with any expertise, but I will compliment you on this 
understanding you have that the total cost of attendance, 
particularly for low- and moderate-income students in high-cost 
areas, is a huge barrier to retention.
    I can commend to you something Lumina Foundation has 
created. They are working with a number of university systems 
around the country. I am going to call it ``beyond financial 
aid,'' but it is the idea of how do you start them at the 
Federal level if your foundational single grant, single loan 
program, how do you then make sure that institutions and their 
communities are accessing means tested benefits, food banks 
that are local, shelters? That there is a set of resources that 
students, particularly nontraditional students, need to know 
about, and it is the responsibility of a community to come 
together to share those.
    I want to say it's not just a Pell grant and paying for 
tuition that will make a difference in student success.
    Mr. DeSaulnier. It resonates with me personally. When my 
dad lost his job when I was a freshman in college, I could put 
together the money for the tuition, but I could not for room 
and board. It was easier to do it in Worcester, Massachusetts, 
than in the Bay Area, Los Angeles today, than it was in the 
1970s.
    When I hear these kids have done everything right and they 
get accepted, they are 4.0s, and they cannot afford the cost of 
housing, and they live on sofas with other friends and then 
leave because they cannot afford it, it just seems to be a 
striking example of how we need to be adaptable.
    Thank you, Mr. Chairman.
    Chairman Guthrie. Thank you. The gentleman yields back. I 
have to correct the record. Earlier, I guess I said our ranking 
member was from UCLA. She is California, but the Berkeley 
campus.
    Mr. DeSaulnier. That is a big mistake.
    Chairman Guthrie. I now recognize Mr. Courtney for 5 
minutes for questions.
    Mr. Courtney. Thank you, Mr. Chairman. Thank you to the 
witnesses, really thoughtful hearing today; some good ideas in 
terms of moving forward finally with reauthorization of the 
Higher Education Act.
    If you drill down in some of the testimony, you can 
actually find a few areas of overlap that is unexpected and 
helpful, and obviously there are some issues that we really do 
have to make some decisions on.
    Dr. Chingos, I am pleased to see that on page 6 of your 
testimony where you said the student loan program should break 
even fiscally and not make profits off of students.
    This morning's 10-year Treasury notes, in other words, the 
amount of interest that the government is going to pay on a 10-
year note, is 2.44 percent. We are still in a place right now 
where the government is collecting legacy interest rates from 
10 years ago which far exceed 2.44 percent.
    People, obviously, who do not have equity to refinance 
those loans again are really kind of helpless in terms of being 
able to take advantage of a low-interest environment. That has 
been, you know, the reality of our economy for a number of 
years.
    The Bank on Students Emergency Loan Refinancing Act, which 
was introduced last year by myself and Senator Warren, would 
have actually given people an opportunity to refinance down, 
and CBO estimated that about $50 billion would be saved for 
borrowers who were still paying some of these legacy loans.
    It would not be loan forgiveness. It would not be discharge 
of the debt. It would just simply, I think, align this debt 
burden with other forms of consumer debt.
    It will be introduced again in this Congress, and again, 
hopefully, we can get strong support on that if the Higher 
Education Reauthorization Act is submitted.
    The other issue which I wanted to just touch on a little 
bit is the issue of public service loan forgiveness, which, 
again, there is some disagreement between some of the testimony 
today.
    Mrs. Copeland-Morgan, in your testimony you expressed 
support for public service loan forgiveness. Just to take an 
example of the National Health Service Corps, which again is a 
very strong incentive to serve in underserved areas as an 
example, maybe you could sort of talk about the benefits of 
that program from your experience.
    Mrs. Copeland-Morgan. Thank you, Congressman. I do disagree 
with my colleagues about loan forgiveness for public service. I 
think it's a good thing. The examples that were mentioned that 
are concerns I think can be addressed within current 
legislation.
    We need to find ways of encouraging young people to go into 
these large areas of need within our States and within their 
communities. I think there is evidence that those programs are 
working, and again, I think overall, when we hear about those 
areas where there are some small problems, we need to make sure 
we don't allow those to be distractions to what is overall a 
solid program, and a very small program in the large scale of 
what we're talking about here in higher education.
    Mr. Courtney. Thank you. I could not agree more. The mental 
health bill, which we passed at the end of the last Congress 
and was signed into law by President Obama, one provision in it 
was to actually extend National Health Service Corps' loan 
forgiveness to pediatric and adolescent psychiatry, which in 
the wake of Sandy Hook -- I'm from Connecticut--you know, it 
was a bitter lesson about the fact that this is one of the most 
critical areas of our healthcare system that is just alarmingly 
understaffed across the country.
    The problem is the reimbursement. If you are a graduating 
medical student wanting to go into psychiatry, there is this 
disparity if you treat kids versus adults.
    If we do not do something about it, we are going to see 
more of these problems proliferate out there. And you talk to 
people in preschool and K-5, I mean that is again a really 
alarming trend in terms of young kids who are experiencing 
that.
    Again, it was great to see bipartisan support for that loan 
forgiveness effort to address something that as a Nation we 
really have, I think, a moral duty to perform.
    Again, if there are fixes needed in the programs, let us 
deal with that. Let us not just eliminate what I think has been 
a really healthy way to get underserved occupations as well as 
regions of the country, critical public service jobs. And with 
that, I yield back.
    Chairman Guthrie. The gentleman yields back. We have from 
the full committee with us, who is very interested in these 
issues, we worked together on these in a very bipartisan way, 
Ms. Bonamici. You are recognized for 5 minutes for questions.
    Ms. Bonamici. Thank you very much, Chairman Guthrie and 
Ranking Member Davis, for holding this hearing, and for 
allowing me to join your subcommittee today. This is an issue 
my constituents in Oregon care about a lot.
    I am someone who worked my way through community college 2 
years and 2 years at University of Oregon, and 3 years in law 
school. I did that all with a combination of loans, grants, and 
work study.
    When I graduated, I went into public service, not to a 
private firm, but I still had little difficulty repaying my 
student debt. That experience is less common today. As we know, 
more students are borrowing, they are borrowing larger amounts, 
and at the same time, there are millions of students, many of 
whom were for some reason or another unable to complete their 
programs, and they are behind on their payments or they are in 
default, which is causing an enormous drag on our economy.
    We face a lot of challenges, and I hope that this committee 
will take a comprehensive approach to making higher education 
accessible and affordable.
    I wanted to follow up on the comment that was made about 
better, more frequent information from our panelists. I am 
pleased to partner with Chairman Guthrie on the Empowering 
Students Through Enhanced Financial Counseling Act, long title, 
but important piece of legislation, that will help students 
with better information, more frequent information, and help 
them limit borrowing and plan ahead for repayment.
    So we have a pretty long list, strengthening Pell grants, 
simplifying loan repayment and access, providing evidence-based 
support to students to help with completion rates, especially 
for the first-generation students. We have some great model 
programs out in Oregon in that regard.
    Students who are parents, students with disabilities, 
students returning from the workforce, veteran students. There 
is a long list.
    I just want to also make a comment about the income-driven 
repayment discussion that I have heard here today. There are 
bipartisan efforts. I have the SIMPLE Act that is a bipartisan 
piece of legislation to get more people into income-driven 
repayment and to keep them there. It's an annual 
recertification that can sometimes get people out. We are 
working on that again in a bipartisan way. That is an important 
piece as well.
    I really wanted to talk about the Federal work study 
program today. As someone who greatly benefited from it myself, 
I know that work study can give students valuable real-world 
experiences, reinforce what they are learning in the classroom, 
and the program requires a match from employers, so we see 
Federal funding go further.
    So I was, needless to say, disappointed to see the 
President proposed a budget that would significantly reduce 
Federal work study investment.
    Mrs. Copeland-Morgan, how can the Federal Government 
maintain flexibility in the work study program while also 
helping institutions connect more students with work-based 
learning opportunities that align with their interests and 
career goals? I want to ask another question, too.
    Mrs. Copeland-Morgan. Thank you for the question. Let me 
just state for the record that I got into education being a 
Federal work study student, working in financial aid for 4 
years as a student.
    The Federal work study program is one way of bringing 
parity for internships, work experience, and other things. It 
reduces the cost of students working. It retains them on campus 
because they are in generally the academic environment. 
Certainly, more funding in work study, we'd love to see that. I 
think this is a bipartisan issue.
    We have seen that work study aids in retention. Certainly, 
our community partners which- the Federal work study program 
allows us to partner with community-based organizations to 
employ students, to help do some of the work that you're 
talking about here today, outreach work, getting the word out 
about financial aid, job location development program.
    I think the real issue is we have to make a greater 
investment in these programs that work, and Federal work study 
is arguably one of the best along with the Pell grant.
    Ms. Bonamici. Thank you. I am glad you mentioned 
internships because we see it is a real equity issue. Some of 
the affluent students can do a prestigious internship, but 
students with more modest means cannot. That is a place where 
work study can help.
    I know Representative Allen earlier asked a question about 
the formulas for allocating campus-based aid to institutions, 
and those formulas have changed very little since the 1970s, 
and that was a long time ago. Some of my colleagues probably 
were not born.
    For the work study program, the majority of the funding is 
distributed to institutions based on how much they received 
decades ago. I know Ms. Conklin explained our neediest students 
are often left out by this formula.
    Mrs. Copeland-Morgan, how can work study funding be 
allocated more equitably?
    Mrs. Copeland-Morgan. Let's get rid of the base guarantee 
in the campus-based program. We've been talking about this 
since I've been in the profession. To make it more modern and 
distribute those dollars where the lowest income and neediest 
students are. We can't do that without making a greater 
investment in the program.
    Ms. Bonamici. Thank you very much. My time has expired. 
Again, thank you, Mr. Chairman and Ranking Member, for allowing 
me to join you today.
    Chairman Guthrie. Thank you for being here today. The 
gentlelady yields back.
    Seeing no other members present for questions, I would like 
to again thank our witnesses for taking the time to testify 
before the subcommittee today.
    I now recognize Ranking Member Davis for any closing 
remarks she may have.
    Mrs. Davis. Thank you, Mr. Chairman. I also thank you very 
much. I think it has been a good and strong discussion, and a 
lot of contributions all the way around in terms of some of the 
things that we actually can change without hurting students and 
furthering their education. That is really the bottom line for 
me, it has to help rather than hurt.
    I also wanted to put into the record the article Mr. 
Courtney had regarding mental health. I want to place that.
    Chairman Guthrie. Without objection.
    Mrs. Davis. I did hear some consensus, as a number of 
people mentioned. It is a great first start, Mr. Chairman, and 
I certainly hope we can come back together and look at some of 
the details and some of the best practices so we actually can 
do something that is going to make a difference. Thank you.
    Chairman Guthrie. Thank you. I appreciate that. I just want 
to close with these comments. You know, we are looking at 
simple, how to make it easier, how to make it more simple.
    I mentioned I have a couple of children in college now, 
going through those kinds of programs. We need to make it 
simple, but we do need accurate data. I think Mrs. Copeland-
Morgan said we need to make sure we have accurate data.
    I had somebody say the other day what if we made it so 
simple for Federal, then the campuses that do campus-based aid 
would have to have separate forms. We do want to make it easier 
for people to use.
    The year-round Pell, something I am very interested in, was 
talked about. It is not to accelerate because of 2-1/2 years of 
college versus 3 or 4, it is cheaper, which it is, that is 
obviously true.
    I worked in manufacturing before, and I saw a lot of people 
that needed to go back, were qualified, needed, and wanted to 
go back and get a secondary education. But when you are 18 to 
22 and know your parents are there for you, it is easier. When 
you are 30 and you are a parent and you have maybe two or three 
children, an example I know, just the idea that it is going to 
take me 4 years to get somewhere, it is very difficult for 
people to do. But if you can spell out some things we can look 
at in accreditation for life experiences, and get somebody into 
that 2-1/2-year timeframe, it is something that is doable, and 
we want to encourage that.
    This has been very informative for me. I appreciate the 
ranking member and all the members' questions and the 
witnesses.
    And without objection, there being no further business, the 
committee will stand adjourned.
    [Additional submission by Ms. Adams follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    [Whereupon, at 12:28 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
